APPENDIX

1a
APPENDIX A
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
[filed Dec. 31, 2020]
No. 19-4789
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ERICK ALLEN OSBY,
Defendant-Appellant.
Appeal from the United States District Court for
the Eastern District of Virginia, at Newport News.
Mark S. Davis, Chief District Judge. (4:19-cr-00009MSD-LRL-1)
Submitted: December 21, 2020
Decided: December 31, 2020
Before KING and THACKER, Circuit Judges, and
SHEDD, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Geremy C. Kamens, Federal Public Defender,
Caroline S. Platt, Appellate Attorney, Suzanne V.
Suher Katchmar, Assistant Federal Public Defender, OFFICE OF THE FEDERAL PUBLIC
DEFENDER, Alexandria, Virginia, for Appellant.
Aident Taft Grano, Assistant United States Attorney, Alexandria, Virginia, Peter Gail Osyf, Assistant
United States Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Newport News, Virginia,
for Appellee.

2a
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Erick Osby appeals the 87-month sentence imposed following his jury convictions for possession
with intent to distribute heroin and possession
with intent to distribute cocaine, both in violation of
21 U.S.C. § 841(a)(1), (b)(1)(C). Appellate counsel has
filed a brief pursuant to Anders v. California, 386
U.S. 738 (1967), stating that there are no meritorious grounds for appeal but questioning whether the
sentencing court erred by using acquitted and uncharged conduct to enhance Osby’s advisory Sentencing Guidelines range. Although notified of his right to
do so, Osby has not filed a pro se supplemental brief.
We review a defendant’s sentence “under a deferential abuse-of-discretion standard.” Gall v. United States, 552 U.S. 38, 41 (2007). To pass muster under this review, the sentence must be both procedurally and substantively reasonable. Id. at 51. In
determining procedural reasonableness, we consider
whether the district court properly calculated the
defendant’s advisory Guidelines range, gave the
parties an opportunity to argue for an appropriate
sentence, considered the 18 U.S.C. § 3553(a) factors,
and sufficiently explained the selected sentence.
Id. at 49-51. If a sentence is free of “significant
procedural error,” then this court reviews it for
substantive reasonableness, “tak[ing] into account
the totality of the circumstances.” Id. at 51. “Any
sentence that is within or below a properly calculated Guidelines range is presumptively reasonable.” United States v. Louthian, 756 F.3d 295, 306

3a
(4th Cir. 2014). “Such a presumption can only be rebutted by showing that the sentence is unreasonable
when measured against the 18 U.S.C. § 3553(a) factors.” Id.
We discern no procedural error in the sentence.
The district court properly calculated the advisory
Guidelines range, responded to the parties’ nonfrivolous arguments, and applied the § 3553(a) factors. Moreover, as counsel concedes, the district
court’s consideration of Osby’s acquitted conduct at
sentencing is permitted by this court’s precedent. See
United States v. Grubbs, 585 F.3d 793, 798-99 (4th
Cir. 2009) (“[C]lear Supreme Court and Fourth Circuit precedent hold[] that a sentencing court may
consider uncharged and acquitted conduct in determining a sentence, as long as that conduct is
proven by a preponderance of the evidence.”). We
further conclude that the sentence is substantively
reasonable. It fell within the Guidelines range and
there is nothing in the record to rebut the presumption of reasonableness therefore accorded to it. See
Louthian, 756 F.3d at 306.
In accordance with Anders, we have reviewed the
entire record in this case and have found no meritorious grounds for appeal. We therefore affirm the district court’s judgment. This court requires that counsel inform Osby, in writing, of the right to petition the
Supreme Court of the United States for further review. If Osby requests that counsel file such a petition, but counsel believes that such a petition would
be frivolous, then counsel may move in this court for
leave to withdraw from representation. Counsel’s
motion must state that counsel served a copy thereof
on Osby.

4a
We dispense with oral argument because the
facts and legal contentions are adequately presented
in the materials before this court and argument
would not aid the decisional process.
AFFIRMED

5a
APPENDIX B
UNITED STATES DISTRICT COURT
Eastern District of Virginia
Newport News Division
[filed Oct. 3, 2019]
UNITED STATES OF
AMERICA
v.
ERICK ALLEN OSBY
Defendant.

Case Number: 4:19cr9-001
USM Number 93119-083
Defendants’ Attorney:
Suzanne Katchmar
Lindsay McCaslin

JUDGMENT IN A CRIMINAL CASE
The defendant was found guilty by a jury on
Counts 5 and 6 of the Second Superseding Indictment
after a plea of not guilty. Additionally, the defendant
was found not guilty as to Counts 1, 2, 3, 4, and 7 of
the Second Superseding Indictment and is discharged
as to such counts.
Accordingly, the defendant is adjudged guilty of
the following counts involving the indicated offenses.
Title and
Section

Nature of
Offense

Offense
Class

Offense
Ended

Count

T. 21, USC
Section
841(a)(1) and
T. 21, USC
Section
841(b)(1)(C)

Possession
with
Intent to
Distribute
Heroin

Felony

September
27, 2018

5

T. 21, USC
Section
841(a)(1) and
T. 21, USC
Section
841(b)(1)(C)

Possession
with
Intent to
Distribute
Cocaine

Felony

September
27, 2018

6

6a
As pronounced on October 2, 2019, the defendant
is sentenced as provided in pages 2 through 6 of this
Judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 1984.
It is ORDERED that the defendant shall notify the
United States Attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must
notify the court and United States Attorney of
material changes in economic circumstances.
Signed this 3rd day of October, 2019.
/s/ MSD
Mark S. Davis
Chief Judge
Case Number: 4:19cr9-001
Defendant’s Name: OSBY, ERICK ALLEN
IMPRISONMENT
The defendant is hereby committed to the custody
of the United States Bureau of Prisons to be
imprisoned for a term of EIGHTY-SEVEN (87)
MONTHS. This term consists of EIGHTY-SEVEN
(87) MONTHS on Count 5 and a term of EIGHTYSEVEN (87) MONTHS on Count 6, all to be served
concurrently.
The Court makes the following recommendations to
the Bureau of Prisons:
1) The defendant shall participate in the BRAVE
Program.

7a
2) The defendant shall participate in a mental
health evaluation and any appropriate
recommended treatment.
3) The defendant shall obtain his GED while
incarcerated.
4)

The defendant shall participate in the
Residential Drug Abuse Program (“RDAP”),
when and if defendant qualifies.

5) If not placed in the BRAVE Program, the
defendant shall be incarcerated in a facility as
close to the Hampton Roads Virginia area as
possible.
The defendant is remanded to the custody of the
United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of THREE (3)
YEARS.
This term consists of a term of THREE (3) YEARS
on Count 5 and a term of THREE (3) YEARS on Count
6, all to run concurrently.
The Probation Office shall provide the defendant
with a copy of the standard conditions and any special
conditions of supervised release.
The defendant shall report to the probation office
in the district to which the defendant is released
within 72 hours of release from the custody of the
Bureau of Prisons.
The defendant shall not commit another federal,
state or local crime.

8a
The defendant shall not unlawfully possess a
controlled substance. The defendant shall refrain
from any unlawful use of a controlled substance and
submit to one drug test within 15 days of release on
supervised release and at least two periodic drug tests
thereafter, as directed by the probation officer.
The defendant shall not possess a firearm,
ammunition, destructive device, or any other
dangerous weapon.
If this judgment imposes a fine or restitution
obligation, it is a condition of supervised release that
the defendant pay any such fine or restitution in
accordance with the Schedule of Payments set forth in
the Criminal Monetary Penalties sheet of this
Judgment.
STANDARD CONDITIONS OF SUPERVISION
The defendant shall comply with the standard
conditions that have been adopted by this court set
forth below:
1) the defendant shall not leave the Judicial
district without the permission of the court or
probation officer;
2) the defendant shall report to the probation
officer and shall submit a truthful and complete
written report within the first five days of each
month;
3) the defendant shall answer truthfully all
inquiries by the probation officer and follow the
instructions of the probation officer;
4) the defendant shall support his or her
dependents
and
meet
other
family
responsibilities;

9a
5) the defendant shall work regularly at a lawful
occupation, unless excused by the probation
officer for schooling, training, or other
acceptable reasons;
6) the defendant shall notify the probation officer
at least ten days prior to any change in
residence or employment;
7) the defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use,
distribute, or administer any narcotic or other
controlled substance or any paraphernalia
related to such substances, except as prescribed
by a physician;
8) the defendant shall not frequent places where
controlled substances are illegally sold, used,
distributed, or administered;
9) the defendant shall not associate with any
persons engaged in criminal activity and shall
not associate with any person convicted of a
felony, unless granted permission to do so by
the probation officer;
10) the defendant shall permit a probation officer
to visit him or her at any time at home or
elsewhere and shall permit confiscation of any
contraband observed in plain view of the
probation officer;
11) the defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer;
12) the defendant shall not enter into any
agreement to act as an informer for a special
agent of a law enforcement agency without the
permission of the court;

10a
13) as directed by the probation officer, the
defendant shall notify third parties of risks that
may be occasioned by the defendant’s criminal
record or personal history or characteristics
and shall permit the probation officer to make
such notifications and to confirm the
defendant’s compliance with such notification
requirement.
SPECIAL CONDITIONS OF SUPERVISION
While on supervised release pursuant to this
Judgment, the defendant shall also comply with the
following additional special conditions;
1)

The defendant shall obtain a General
Equivalency Diploma (GED) or a vocational
skill during his period of supervision if not
employed full-time.

2) The defendant shall provide the probation
officer access to any requested financial
information.
3) If the defendant tests positive for a controlled
substance or shows signs of alcohol abuse, he
shall participate in a program approved by the
United States Probation Office for substance
abuse, which program may include residential
treatment and testing to determine whether
the defendant has reverted to the use of drugs
or alcohol, with partial costs to be paid by the
defendant, all as directed by the probation
officer.
4) The defendant shall undergo a mental health
evaluation at a program approved by the
United States Probation Office for mental
health treatment. The defendant shall follow

11a
all recommendations of the evaluation, which
may include mental health treatment. The cost
of this program is to be paid by the defendant
as directed by the Probation Officer.
5) The defendant shall waive all rights of
confidentiality
regarding
substance
abuse/mental health treatment in order to
allow the release of information to the United
States Probation Office and authorize
communication between the probation officer
and the treatment provider.
6) The defendant shall have no contact with any
known gang member, without first obtaining
the permission of the probation officer.
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the Schedule of Payments on Sheet 6.
Count

TOTALS:

Assessment

Fine

Restitution

5

$100.00

$0.00

$0.00

6

$100.00

$0.00

$0.00

$200.00

$0.00

$0.00

FINES
No fines have been imposed in this case.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
The special assessment shall be due in full
immediately.

12a
Any balance remaining unpaid on the special
assessment at the inception of supervision, shall be
paid by the defendant in installments of not less than
$25.00 per month, until paid in full. Said payments
shall commence 60 days after defendant’s supervision
begins.
Any special assessment may be subject to penalties for
default and delinquency.
Nothing in the court’s order shall prohibit the
collection of any judgment, fine, or special assessment
by the United States.
Since this judgment imposes a period of
imprisonment, payment of criminal monetary
penalties, including the special assessment, shall be
due during the period of imprisonment. All criminal
monetary penalty payments, including the special
assessment, are to be made to the Clerk, United
States District Court, except those payments made
through the Bureau of Prisons’ Inmate Financial
Responsibility Program.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
Payments shall be applied in the following order: (1)
assessment (2) restitution principal (3) restitution
interest (4) fine principal (5) fine interest (6)
community restitution (7) penalties and (8) costs,
including cost of prosecution and court costs.

13a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
NEWPORT NEWS DIVISION
UNITED STATES OF
AMERICA
v.
ERICK ALLEN OSBY,
Defendant.

)
)
)
) Criminal Action No:
) 4:19cr9
)
)

TRANSCRIPT OF PROCEEDINGS
(Sentencing)
Norfolk, Virginia
October 2, 2019
BEFORE: THE HONORABLE MARK S. DAVIS
United States District Judge
Appearances:
OFFICE OF THE UNITED STATES ATTORNEY
By: PETER OSYF
Counsel for the United States
OFFICE OF THE FEDERAL PUBLIC DEFENDER
By: SUZANNE VICTORIA KATCHMAR
Counsel for Defendant
The Defendant appearing in person.

14a
***
[3] P R O C E E D I N G S
(Proceedings commenced at 2:39 p.m. as follows:)
COURTROOM DEPUTY CLERK: In Case No.
4:19cr9, the United States of America v. Erick Allen
Osby.
Mr. Osyf, is the government ready to proceed?
MR. OSYF: The United States is ready. Good
afternoon, Your Honor.
THE COURT: Good afternoon, Mr. Osyf.
COURTROOM DEPUTY CLERK: Ms. Katchmar, is
the defendant ready to proceed?
MS. KATCHMAR: He is. Good afternoon.
THE COURT: Good afternoon, Ms. Katchmar.
Let’s go ahead and administer the oath to the
defendant.
MS. KATCHMAR: Your Honor, Ms. McCaslin, I
believe, is still in a hearing up in Courtroom 1.
THE COURT: All right. She can join us whenever she
comes.
MS. KATCHMAR: Thank you.
(Defendant placed under oath.)
THE COURT: And it is Osby; is that right?
THE DEFENDANT: Yes.
THE COURT: Osby.
[4] Okay. Let’s review where we are. On May 31st,
2019, Mr. Osby was found guilty by a jury of two counts
of a second superseding indictment, that was Count 5,
possession with intent to distribute heroin in violation
of Title 21 of the U.S. Code, Sections 841(a)(1) and

15a
841(b)(1)(C), and Count 6, possession with intent to
distribute cocaine in violation of Title 21 of the U.S.
Code, Sections 841(a)(1) and 841(b)(1)(C).
At the conclusion of the trial the Court accepted the
verdict of guilty and the matter was continued for
sentencing.
The Court, of course, after that, received the
presentence report that was prepared by the probation
office of the court, and that presentence report is dated
August 15, 2019, and the addendum is September 12,
2019. So I’ve considered that. And also I have received
and read these position statements and objections. I
have the defendant’s objections, Document 69 on our
electronic filing system; Document 70, the defendant’s
position on sentencing, and the government’s position on
sentencing, Document 71.
Also the Court notes that attached to the defendant’s
position on sentencing were two letters the Court has
considered, one from Mr. Osby’s grandmother, Pearl
Osby, and one from his mother, I think it’s Rene.
MS. KATCHMAR: Yes, Your Honor.
THE COURT: Rene Osby. So I’ve read both of those
letters.
[5] MS. KATCHMAR: Thank you.
THE COURT: And all that other information that I
just reviewed in preparation for today’s sentencing. So
that’s what’s before the Court.
So Ms. Katchmar, have you reviewed the
presentence report and the addendum and had enough
time to review it with Mr. Osby?
MS. KATCHMAR: Yes, Your Honor.

16a
THE COURT: Other than the objections that you’ve
filed, did you see any other errors in the report that you
need to bring to my attention?
MS. KATCHMAR: No, Your Honor, they have all
been corrected.
THE COURT: All right. Mr. Osby, have you reviewed
the presentence report with Ms. Katchmar?
THE DEFENDANT: Yes, Your Honor.
THE COURT: And did you have enough time to
review it with her?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Other than the objections that she
filed, did you see anything else in that presentence
report that you need to bring to my attention?
THE DEFENDANT: No, Your Honor.
THE COURT: All right. Do you believe that this
presentence report fully covers your background, Mr.
Osby?

[6] THE DEFENDANT: No, sir.
THE COURT: Okay. So when I ask this question,
sometimes I get that response. And what I always tell
defendant’s when they’re in front of me is there’s no way
that somebody can write a 500-page biography of the
person who is coming before me for sentencing. And so
we ask the court’s probation officers to prepare these
presentence reports that review the life of the person
from birth to the present time, reviews educational
information, health, physical health, mental health
information and prior criminal record and really covers
the highlights of somebody’s life. And so that’s what
we’re trying to do, to convey—the probation office is
trying to convey to the Court the things that it thinks

17a
are important for the Court to consider in deciding how
to sentence somebody.
So when I ask the question, as I do in every single
sentencing, whether the presentence report fully covers
your background, that’s what I’m trying to get at. But if
you think there’s something in your background that
was not included in the presentence report I’m happy to
hear that from you and to consider that.
What I think we ought to do is let you talk with Ms.
Katchmar before you tell me what it is you think is left
out of the report or is not correctly stated in the report,
all right? So why don’t you all talk.
MS. KATCHMAR: Thank you, Your Honor.
[7] (Counsel and defendant conferred.)
MS. KATCHMAR: Thank you, Your Honor.
We’ve had an opportunity to confer outside the
hearing of all the parties, and I’ve asked Mr. Osby if I
could respond to the Court. And it’s, as we often hear,
which it appeared to Mr. Osby, who is not used to
reading these, that it’s very imbalanced. It’s not fair and
balanced. It seems more negative than positive. But
when I asked him about his personal history and
characteristics, that section regarding substance abuse
and mental health, education, work history, he agrees
that it hits the highlights. So it’s more of a feeling versus
a lack of information.
THE COURT: Okay. Mr. Osby, has Ms. Katchmar
accurately summarized your position on that issue?
THE DEFENDANT: Yes, Your Honor.
THE COURT: So before sentencing takes place, Mr.
Osby, you’ll have a chance to make a statement to the
Court. We refer to that as allocution. And in that
statement, lots of times I’ll hear from defendants their

18a
description of why they think that the Court should
consider something else if it’s not in the presentence
report. So you are free at that time to tell me if you think
there’s something else that I should be considering if you
think that the presentence report for some reason is
imbalanced. Do you understand that?
THE DEFENDANT: Yes, Your Honor.
[8] THE COURT: All right. So Ms. Katchmar, that’s
all the questions I have right now on that. And so your
client can have a seat back at counsel table and I’ll be
happy to hear from you on objections that we may have
to deal with.
MS. KATCHMAR: Your Honor, may I gather my
papers—
THE COURT: You may.
MS. KATCHMAR: —which are quite in number.
THE COURT: Sure.
MS. KATCHMAR: —understanding the government
bears the burden to prove then by a preponderance of
the evidence, so . . .
THE COURT: Right. I just want to take up each
objection and then we can address it as you see fit. But
maybe we’ll treat it as a shifting burden: You make the
objection, and then we move on to the government’s
response and however we characterize that. Meeting its
burden or replying.
MS. KATCHMAR: Thank you.
And I provided—I don’t know if the Court would like
me to mark it before I start, but I had provided Mr. Osyf
as I was preparing today, I did one quick search to see if
this issue had ever been raised with the Supreme Court
since post Booker, meaning the issue of whether the
Fifth and Sixth Amendments prohibit a federal court

19a
from basing a criminal defendant’s sentence on conduct
underlying a charge for which the defendant was
acquitted by a jury, which is one of my objections. And I
[9] see that there is one, a writ of certiorari pending on
that issue right now. And so I have a copy of that simply
for the Court’s edification, not to necessarily read, but I
just wanted the Court to know that I will be raising the
issue as I argue Watts.
THE COURT: I certainly read and considered your
position paper, and I’m happy to consider anything else
you wish to offer.
MS. KATCHMAR: Would the Court like me to mark
it or just pass it up?
THE COURT: You can just pass it up, since it’s a
matter of record on the Supreme Court’s docket.
MS. KATCHMAR: It’s 19-107, Osario v. United
States. It’s currently penning on the issue that I raised.
THE COURT: All right.
So the objections that the Court has is, first, the
defendant objects to the inclusion in the presentence
report of the drugs and firearms that were the subject of
Counts 1 through 4 and 7, since the jury found that the
defendant was not guilty beyond a reasonable doubt on
those charges. And this impacts the drug weight and the
two-level enhancement for possession of a dangerous
weapon. So that’s one. Do you want to address that first?
MS. KATCHMAR: I think that would be best, Your
Honor,
because I believe that that kind of trickles down to
other
[10] issues and would be best handled first.
THE COURT: So now I’ve read your position papers
and I’m perfectly happy to kind of take up the issues that

20a
you raise starting with the Constitutional argument for
excluding drug weight and firearm and then moving on
to the factual objection to the drug weight, the standard,
and then the discussion of that issue. And then I’m
happy to move on to the premises enhancement, and
after I address the drug and firearms that were Counts
1 through 4, and then after addressing the factual
objection to the quantities from the two controlled buys
on September 4 and September 27th that were not
charged, just move right on through. But if you all have
additional comments, I don’t want to cut you off from
those.
MS. KATCHMAR: Okay. And we have—just so I can
make the record clear—thank you, Your Honor, I think
that’s a proper way to proceed and we appreciate the
Court’s direction.
Mr. Norton, Agent Norton is the ATF-assigned agent
who just walked in. I believe that the other individual is
a forensic scientist/biologist, Ms. Pollard, who came in
and appears is being directed out.
THE COURT: Okay.
MS. KATCHMAR: So with—
THE COURT: So maybe you’re suggesting I need to
find out whether there’s any evidence that’s going to be
presented before argument takes place? Maybe that’s
what I should do. Do [11] you plan to offer any evidence
right now?
MS. KATCHMAR: No, Your Honor. I would only be
arguing against the government providing certain
evidence to the Court.
THE COURT: Okay. Mr. Osyf, are you going to have
evidence today?
MR. OSYF: Your Honor, pending the Court’s ruling
on an issue of the DNA evidence in question that was

21a
excluded prior to trial, if the—I believe these come under
the umbrella of the acquitted and relevant conduct
argument objections that defense is making. So pending
the Court’s ruling on that issue, we do have Ms. Anne
Pollard, a forensic analyst who conducted the DNA
analysis here today and is prepared to testify if the
Court is going to entertain that evidence.
THE COURT: Well, that is well down my list. So let’s
take these up in the order that I’ve suggested, and when
we get to that we’ll see where we are.
MR. OSYF: Thank you, Your Honor.
THE COURT: All right. So Ms. Katchmar, do you
have any additional comments just on the, let’s say the
Constitutional argument other than the additional case
that you have or the additional petition for writ of
certiorari that you paused up to me?
MS. KATCHMAR: Yes, Your Honor, if I—very—I
promise to be very brief. It’s not my gift, but I will try it.
[12] Your Honor, I would simply summarize that the
case law that the government relies on, Watts and its
progeny, along with a Commission, United States
Sentencing Commission that relies on policy and
changes cannot trump the Constitution. And that under
the Watts case, if the Court would like I can put the cite
into the record, which is 519 United States 148, 1997
which was decided pre-Booker and pre-Blakely, decided
a very narrow issue under the double jeopardy clause. It
did not—was not decided regarding the Fifth and Sixth
Amendment, both the rights to procedural and
substantive due process under the Fifth Amendment,
and it was not decided as it relates to the Sixth
Amendment right to a speedy and public trial and
representation by counsel.

22a
Based upon that, Your Honor, reliance on Watts is
misplaced, and since we are dealing with acquitted
conduct, the guideline regarding relevant conduct to
allow acquitted conduct is, we submit, unConstitutional.
We understand that in United States v. Ibanga, I-ba-n-g-a, which is out of this district, 2:04cr227, Judge
Kelley tried to not include acquitted drug weight, and
the Fourth Circuit said no, under Watts and its progeny
you must at least consider it pursuant to 3553(a). But as
is recognized under Kimbrough v. United States, 128
Supreme Court 558, “While a district court must include
the guidelines range in the array of factors warranting
consideration, it may vary from that [13] guideline range
based solely on policy considerations, including a
disagreement with the guideline.”
So as going forward, Your Honor, we would submit
that Watts, reliance on Watts by this Court and other
courts, as courts continue to disagree, as I put in my
papers and the Court has reviewed, reliance on Watts is
misplaced, and the Supreme Court is considering the
question right now. And we would submit that to apply
Watts and allow acquitted conduct to be considered
would be unconstitutional.
I have nothing further and would incorporate my
pleading.
THE COURT: Let me ask you a question on this
issue.
So if the government had never indicted on the hotel
room set of facts and we were only going forward on
Counts 5 and 6, and that was all that had been indicted
on and the defendant was found guilty on that, would
there be any impediment to enhancements being
asserted based on the same facts that underlie these
other counts that were acquitted?

23a
MS. KATCHMAR: Yes, Your Honor. We do plea that
it would still be a problem as we’ve raised with both the
controlled buy on September 4th and the controlled buy
on September 27, 2018 that were not presented to the
jury but were provided in the relevant conduct here.
So the argument would not change regarding the fact
Mr. Osby pursued his right to trial by jury, and a jury of
his [14] peers made a finding Constitutionally and he
received due process under the Fifth Amendment and
representation and right to trial under the Sixth
Amendment.
THE COURT: I guess what—I’m asking a different
question.
MS. KATCHMAR: Okay. I apologize.
THE COURT: You’re saying that because the
government indicted on the hotel room incident and the
jury acquitted on that, that the Court is precluded in
calculating the guidelines from using any of that conduct
for enhancements. That it’s unConstitutional. And what
I’m asking is if they had never indicted on that hotel
room incident but the probation officer had included
those drug weights, for example, there’s obviously no
Constitutional argument of the kind that you’re making
here, I would think. That’s what I’m asking you.
MS. KATCHMAR: I’m still not willing to step away
from it. I think it would be a different situation if, for
example, he had pled guilty and then the only way the
government would have to establish it is by a
preponderance of the evidence at that point because Mr.
Osby would have conceded a finding of guilt, and then
only the standard of a preponderance would be there,
whereas here—perhaps I’m still misunderstanding your
question—but here, where even if he had only been
indicted on the charges here, we submit he should only
be before the Court today o Counts 5 and 6. By going to

24a
trial and being acquitted, [15] even on the firearm Count
7, we would maintain the same position. It was
presented to the jury, the jury heard all the facts, the
Court heard all the facts, the jury made a finding based
upon the law provided to it by the Court. And I
understand that there’s 18 United States Code Section
3661 which allows the Court to consider just about
anything that it deems relevant in fashioning a sentence
that is sufficient but not greater than necessary under
3553(a). But those cannot be read independently of each
other. And when 3553(a) still requires that, under Gall,
to calculate the guidelines correctly they still must be
done in a Constitutional manner.
So I understand I’m going on. I may have missed
your question again. But if they had not provided it and
he had still pursued his right to trial, I still would be
making the same argument.
THE COURT: I follow. Thank you.
MS. KATCHMAR: I did not follow though, Your
Honor?
THE COURT: No, I said I follow.
MS. KATCHMAR: Oh, I apologize.
THE COURT: I followed.
MS. KATCHMAR: Thank you.
THE COURT: All right. Let’s hear from Mr. Osyf. Do
you have anything new or different or in response that I
haven’t already considered, Mr. Osyf?
MR. OSYF: I would just like to address the Court’s
[16] question for defense counsel, if I may.
It seems to the government that defense counsel’s
answer to that question is asking that the Court not
only—should not only not consider acquitted conduct,

25a
but all relevant conduct as well. As the Court pointed
out—
THE COURT: Where somebody goes to trial, is what
I was hearing.
MR. OSYF: Correct. Correct, Your Honor. For
somebody that goes to trial. And again, this—you know,
Booker and Blakely did not overturn Watts. And they
were 2005 and 2004 cases, respectively. And as the
government pointed out in its paper, the Fourth Circuit
has said, “Clear Supreme Court and Fourth Circuit
precedent hold that a sentencing court may consider
uncharged and acquitted conduct in determining a
sentence as long as that conduct is proven by a
preponderance of the evidence.” And that’s the key, Your
Honor. Is the different standards here. So even if a case
does go to trial, the standard before the jury is beyond a
reasonable doubt. The standard before Your Honor is a
preponderance of the evidence, which is precisely why
you’re allowed to consider all sorts—a totality of the
entire defendant’s history and makeup and recidivistic
activity, if there is any. That is precisely why there’s that
critical difference between what juries may consider and
what you may consider at sentencing. And again—that’s
from United States v. Grubbs, 585 F.3d 793 Fourth [17]
Circuit. And that’s 2009. Well after Booker and Blakely.
And I can recite the string cite in the government’s paper
on Page 4, but essentially from 2009 to present the
Fourth Circuit has been very clear on this issue. And
with all due respect, Your Honor, as early as this year
this very Court made a similar ruling in a sentencing
allowing acquitted conduct on a trial defendant to come
in and be considered before this Court at sentencing.
That is the law.
Now, the government concedes that there is a
pending case before the Supreme Court and that may
well change the law, but not today, Your Honor. And

26a
that’s what’s before the Court, and acquitted conduct is
considerable, as well as relevant conduct of a defendant,
whether or not they went to trial or not.
Thank you, Your Honor.
THE COURT: Hold on a second.
MR. OSYF: Yes, sir.
THE COURT: So if I follow the law as it is right now
and allow acquitted conduct to be at least considered—
and frankly I’m not sure how I can’t follow the law,
because that is the law of the country—but then if the
Supreme Court grants the petition to hear this case, it
would be decided ostensibly by June of next year, and
then if there’s an appeal pending in this case and the
Supreme Court changes the law and says that judges at
sentencing cannot consider acquitted conduct, then [18]
that certainly is something that can be taken up during
the appeal before the Fourth Circuit?
MR. OSYF: It most certainly well could, Your Honor.
THE COURT: All right. Thank you, Mr. Osyf.
MR. OSYF: Thank you.
THE COURT: All right. Defendant obviously was
charged with various counts of drug tracking and
possession of a firearm stemming from a couple of dates.
The September 18, 2018 incident, and that was Counts
1 through 3, and that’s when the hotel staff members of
course called the police after discovering the drug and a
firearm in defendant’s hotel room. And then the other
one is the September 27th, 2018 incident when the
defendant was arrested for selling drugs from a vehicle,
and a firearm was also recovered there. Defendant has
objected to the presentence report’s inclusion of drug
weights from Counts 1 through 3, the drug charges, that
is, from the September 18 hotel room incident on which

27a
the jury found the defendant not guilty beyond a
reasonable doubt.
The defendant also objects to the two-level
enhancement for possession of a dangerous weapon, as
the jury found the defendant not guilty on Counts 4 and
7, which were possession of a firearm in furtherance of
drug tracking charges. On the same basis, the defendant
argues that he should not be attributed with the drug
weights from uncharged controlled purchases that were
made by a confidential source. The [19] defendant has
argued that inclusion of this acquitted or uncharged
drugs are a violation of his Fifth and Sixth Amendment
right, and he cites to various concurring an dissenting
opinions where judges have discussed whether the
consideration of acquitted conduct in sentencing violates
a defendant’s Fifth and Sixth Amendment rights to due
process and trial by jury. And of course this is the matter
of some debate. For example, if one looks to Jones v.
United States at 135 Supreme Court, Page 8, 2014, you
have three justices of the Supreme Court Scalia, Thomas
and Ginsburg dissenting from denial of cert and stating
that the use of acquitted conduct at sentencing
disregards the Sixth Amendment. And also United
States v. Bell from the D.C. Circuit in 2015 where thenJudge Cavanaugh, concurred in the denial of rehearing
en banc.
The Supreme Court has held that consideration of
uncharged or acquitted conduct is permissible and does
not violate a defendant’s Constitutional rights in the
decision at U.S. v. Watts in 1997 that Ms. Katchmar
referenced.
The Supreme Court has reasoned that sentencing
courts have broad discretion to consider various kinds of
information pursuant to the statute found at 18 U.S.
Code Section 3661, which says “No limitations shall be
placed on the information concerning the background,

28a
character and conduct of a person convicted of an offense
which a court of the United States may receive and
consider for the purpose of imposing an appropriate [20]
sentence.”
The Federal Sentencing Guidelines also say the
following. “In determining the sentence to impose within
the guideline range or whether a departure from the
guidelines is warranted, the court may consider, without
limitation, any information concerning the background,
character and conduct of the defendant unless otherwise
prohibited by law.” That’s 1B1.3.
The Court of Appeals in our circuit has said that
“Clear Supreme Court and Fourth Circuit precedent
hold that a sentencing court may consider uncharged
and acquitted conduct in determining a sentence as long
as that conduct is proven by a preponderance of the
evidence.” They said that in U.S. v. Grubbs in 2009.
And they also commented in U.S. v. Young in 2010
that “A sentencing court is not bound by the evidence
presented at trial when determining drug quantity or
other relevant conduct.”
In U.S. v. Perry in 2009 they noted that “A
sentencing court may consider acquitted conduct in
establishing drug amounts for purposes of sentencing, so
long as the amounts are established by a preponderance
of the evidence.”
And so in light of clear controlling guidance from the
Supreme Court and the Fourth Circuit Court of Appeals
on the Constitutionality of whether a Court may
consider uncharged or acquitted conduct in sentencing,
the Court must overrule the [21] objection on this issue.
Now that takes us to the issue of drug weights.
Although the Court may consider uncharged and
acquitted conduct during sentencing without violating

29a
the defendant’s Constitutional rights, the Court has to
also consider whether the government has met its
preponderance of the evidence burden. The defendant
argues that the government failed to meet its burden for
the uncharged controlled substances. The law on this
issue and the guidelines, of course, provide that a
district court may consider any relevant evidence
without regard to its admissibility under the Rule of
Evidence applicable at trial provided that the
information has sufficient indicia of reliability to
support its probable accuracy. That’s guideline 6A1.3.
The Fourth Circuit in U.S. v. Uwaeme, U-w-a-e-m-e,
in 1992 said “For sentencing purposes, hearsay alone
can provide sufficiently reliable evidence.”
The government, of course, “bears the burden of
proving by a preponderance of the evidence the facts
that establish that a defendant was involved in specific
conduct,” they said in U.S. v. Brooks in 2008. They made
that statement with respect to courts having to make
individualized findings on drug quantities.
“However, although the burden of establishing the
defendant’s criminal activities fall on the government,
once the [22] government has provided evidence
sufficient to justify inclusion of that conduct in the
presentence report, a defendant’s mere objection to the
finding in the presentence report is not sufficient, as the
defendant then has an affirmative duty to make a
showing that the information in the presentence report
is unreliable and articulate the reason why the facts
contained there are untrue or inaccurate,” as the Fourth
Circuit said in U.S. v. Terry and U.S. v. Powell.
“Without an affirmative showing the information is
inaccurate, the court is free to adopt the findings in the
presentence report without more specific inquiry or
explanation.” Therefore, the burden is on the defendant

30a
at that point to show the inaccuracy or unreliability of
the presentence report.
In determining whether factual information in the
presentence report is reliable, the information “must
have some minimal indicia of reliability beyond mere
allegation.” Reliable evidence may include hearsay
testimony gathered from lay witnesses or informants, as
the Court of Appeals said in U.S. v. Crawford.
“The court should independently assess the
credibility of testimony relied on in the presentence
report, and where the reliability of evidence is an issue,
the court should conduct an evidentiary hearing it
determine it,” as the court said in U.S. v. Wilkinson in
our circuit.
[23] Before I go on to address the written pleadings
on the controlled purchases, the Court understands that
there’s no additional evidence on the controlled
purchases? The controlled purchases? Is that the case?
MR. OSYF: There may be, Your Honor, if I could
approach to the podium?
THE COURT: Yes.
MR. OSYF: So Your Honor, prior to trial, defense
counsel had submitted certain motions in limine and
stipulations were had where defense specifically
requested that the controlled buy evidence not come in,
and the government acquiesced. We comported with
that request specifically because we didn’t feel that that
was what the defendant was on trial for, those issues
being relevant conduct, that they were ripe for today, for
sentencing, and intentionally did not present evidence
in the interest of judicial economy and moving things
along and concentrated its focus completely on the
defendant’s conduct on the 18th and on the 27th so as
not to confuse the issue or belabor the point.

31a
So that being said, Your Honor, if the Court is
inclined to adopt the PSR as factual, then I don’t see
there’s any need for additional information. However, if
there is, we do have the case agent present, and again
regarding the DNA, the forensic analysts that are happy
to testify here today and present additional evidence
before the Court on both the [24] controlled buys and the
DNA and what have you which are ripe for sentencing.
THE COURT: Well, the objection has been made, so
let me say it this way: There was no evidence presented
at trial about the controlled buys, right?
MR. OSYF: That’s correct, Your Honor.
THE COURT: The confidential informant who made
the controlled purchases didn’t testify at trial about
whether he believed the substances were drugs, and no
forensic evidence has been presented as to the weight of
the drugs purchased from the controlled buys or what
types of drugs they are. So at this point the Court has
none of that before it, right?
MR. OSYF: Correct, Your Honor.
THE COURT: And you have a case agent here today
who is prepared to present that, present evidence on
those issues?
MR. OSYF: To meet the government’s burden as a
preponderance of the evidence, yes, Your Honor.
THE COURT: All right. Well, I’ll hear the evidence
and we’ll see where we go.
MR. OSYF: Thank you, Your Honor. And so the
Court would like to hear evidence as it pertains only to
the controlled buys; is that correct?
THE COURT: Yes, at this point. Was there
something else on which the agent was going to testify?

32a
MR. OSYF: The agent would testify—I had three [25]
issues that may be of interest to the Court. One is the
controlled buys, the other at issue I believe—I don’t
remember if it was a formal objection or just something
defense had brought up—was that there’s an issue with
the weight including the packaging. And as the Court
might recall it was presented at trial, but again, the
agent could testify that the—
THE COURT: Regarding what?
MR. OSYF: The heroin and Fentanyl was specifically
retested without the packaging for more accurate weight
in a supplemental lab report which was presented at
trial.
THE COURT: Okay.
MR. OSYF: And the third issue was just to
corroborate the DNA forensic analyst’s testimony that
the firearm and the bag of narcotics recovered from the
hotel room at the Extended Stay in Hampton were, in
fact, the ones recovered and sent to the lab that she
would testify to.
THE COURT: All right. Ms. Katchmar, I’ll hear the
evidence and then you, of course, can cross-examine and
we’ll see where we go.
MS. KATCHMAR: Your Honor, may I be heard on
one thing?
THE COURT: Hmm-hmm.
MS. KATCHMAR: Well, two things, please.
First, as it relates to the controlled buys, they did
[26] not have to agree to keep it out. I still believe that it
was improper. It would have been improper 404(b),
would have shown propensity, and it kept me from
having to file that motion, and I stand on all my other
objections, do not withdraw them.

33a
Second, as it relates to the packaging, that only had
to do with the drugs on September 27th because they
retested the ones for September 18th. So it was just
where I raised the issue that they had not retested the
ones on September 27th and therefore the weights could
be unreliable.
Third—
THE COURT: Okay. But so you’re not saying we
don’t need to hear that evidence, you’re just saying it
only relates to the one date?
MS. KATCHMAR: Right. Because we have what we
have, and my continuing objection is to those drug
altogether on September 18th.
THE COURT: Okay.
MS. KATCHMAR: As it relates to the DNA, I think
that is a very separate and distinct issue. That was a
sanction against the government, and the government
should not have the benefit of even presenting any
evidence even from their agent regarding any chain of
custody related to the DNA because that was a sanction.
And should the Court allow the government to present
any evidence at all relating to the DNA from the
September 18th swabbing of the firearm, then we
submit that that [27] is absolutely raising a Sixth
Amendment and Fifth Amendment issue and counsel
will be 100 percent ineffective in its ability to confront
and cross-examine anyone with the expertise of DNA. I
have not hired a witness, I have not hired an expert, and
it was a sanction, and the government should not then
get to benefit and get a no-harm/no-foul on their failure
to act and the sanction that this Court imposed.
THE COURT: So now remind me—now the
government said it’s DNA evidence not just about the
gun but also drugs. That’s what Mr. Osyf said.

34a
MS. KATCHMAR: I think they did a package, but it
was—I objected to the DNA evidence period.
THE COURT: Okay. And so remind me your
argument on the sanction and your view of the ruling
and tie that into why you think that it’s inappropriate
for them to be able to offer it now?
MS. KATCHMAR: Your Honor, the government had
filed, had filed a request for a late notice of their experts,
even though they had provided information to the
defense about who they might call as experts, which
included forensic biology information, DNA testing.
When the government did not timely file notice of
experts as required under their discovery rule entered
into jointly by contract, the defense did not hire a DNA
expert. So when we came during our motions hearing,
which is immediately a day prior to starting trial in this
case, the [28] Court asked, well, what’s the harm and
what’s the prejudice? And we were able to raise no
prejudice as it related to the individual who might talk
about interstate commerce on the firearm and et cetera,
but we were able to raise the prejudice that we would
suffer if they called a DNA expert at trial. The Court
then gave us the option of either continuing or going
forward. We chose to go forward, and the Court excluded
the expert as untimely. As a sanction.
So because that sanction has been continuing, that
sanction must continue, otherwise I don’t have an
expert, there is specialized knowledge, there is
specialized evidence that requires a person with the skill
set well above this counsel or my co-counsel, should she
have a chance to come today. And any continuance at all
would still require hiring of an expert to combat it to
even determine when and how that DNA should be
analyzed.

35a
But most importantly, a sanction is a sanction, and a
person should not—not a person. Excuse me. I don’t—
I’m not trying to make it personal. The government or
opposing party should not benefit from a sanction by
simply not getting it in the trial but then getting it here.
So I believe it rises to a Constitutional level. A sanction
was made.
THE COURT: Is this argument co-extensive
essentially with your acquitted conduct argument? The
reason I ask is your argument Constitutionally on
acquitted conduct is if it’s [29] acquitted,
Constitutionally I shouldn’t be able to sort of backdoor it
as evidence that allows the guidelines to be impacted.
And on the DNA issue, I precluded the government from
presenting it as a sanction, but your argument similarly,
it feels like, is they shouldn’t be able to backdoor that
evidence at sentencing. And I guess as, even as I say it,
I do see that it—there’s a couple differences. One is that
on the information involving the acquitted conduct, the
jury had the benefit of hearing all that, as did the Court,
and the Court is able to make determinations based on
that necessary for making its preponderance of the
evidence finding on drug weights, for example. But the
Court never heard the DNA evidence, nor did the jury.
And so in that respect, the issues are different. But I’m
still trying to wrap my mind around why it is, as you
argue, that in considering relevant conduct evidence, the
Court should not be able to consider DNA evidence
offered today.
MS. KATCHMAR: Because, Your Honor, putting
aside the argument for acquitted conduct, it was a
sanction imposed by the Court. And when we look at the
sentencing factors in promoting respect for the law, that
is one of the things that the Court must consider even if
we’re talking about a firearm and DNA from a firearm
or DNA from a baggie of drugs. And here, the

36a
government did not do what it was supposed to do. And
if we are not going to hold them to their obligations and
we’re going to continue to say even though we sanction
you, no problem, you get [30] to do it at sentencing even
though you didn’t do it when you were supposed to do in
the first place, then how do we keep the behavior from
continuing where they keep doing—“they” being the
government—not doing what they’re supposed to do,
suffering a sanction on the front, but understanding that
there’s no harm, no foul on the back because it’s still
going to happen?
So while it may sound similar to acquitted conduct,
this is different. Because this was not only not presented
to the jury, but it was specifically, by order of this Court
based on the government’s failure to act and the
prejudice suffers—excuse me, Your Honor—the
prejudice suffered by Mr. Osby which will continue
because I don’t have an expert.
THE COURT: When did you first know that the
government was going to offer DNA evidence today?
MS. KATCHMAR: When did I know that they were
going to call Ms. Pollard? Last night at about six o’clock.
THE COURT: And when did you first know that they
were going to argue for the Court to consider DNA
evidence?
MS. KATCHMAR: When I first received the
disclosure from Probation, I believe. The first disclosure.
August. But it’s very different to argue about whether
the DNA should come in or not versus having to crossexamine someone who is potentially an expert in their
field and challenge all the underlying bench notes and
information that takes specialized [31] knowledge,
specialized training, and a lot more time.

37a
And frankly, I was always going to argue that it was
not only an issue of not being presented to the jury and
acquitted conduct, but that it’s a sanction and it cannot
be a sanctionless sanction. And that is our position, Your
Honor.
But yes, sir, yes, last night was the first I heard that
the forensic biologist would be here.
THE COURT: So before that, you understood that
they might—I guess in discovery DNA certificates were
presented?
MS. KATCHMAR: I have the certificate of analysis,
yes, Your Honor.
THE COURT: For the gun, DNA found on the gun in
the hotel room and the drugs? Some of the drugs, at
least? So that was produced, but you didn’t know until
yesterday that they were actually going to call somebody
to testify further than just offering those certificates?
MS. KATCHMAR: That’s correct.
THE COURT: And typically at a sentencing, there’s
no requirement that you be notified of witnesses. 99
percent of the time that’s a fact witness that you’re
dealing with. But it’s not all that unusual that you would
not know in advance more than the night before, I take
it?
MS. KATCHMAR: If it were—
THE COURT: A fact witness?
MS. KATCHMAR: If it were a fact witness it’s—to be
[32] candid, that’s unique to the prosecuting counsel how
much notice we get. Some folks tell you right off the bat
at the minute you plead guilty or are found guilty, some
after 6:00 on the night before.
But when we’re talking about expert expertise,
understanding the Rules of Evidence under 1101 are

38a
relaxed at a sentencing, this is still an issue here which
I have to go back to, which this was a sanction. And this
is a pattern of conduct with this, that it was late notice,
there was prejudice, and frankly for an expert on that
issue, this is late notice and we are continuing to suffer
prejudice. So this sanction should continue and that
DNA should not be considered.
THE COURT: So if the Court were to, today,
determine that the sanction should carry through and
sufficient DNA evidence should not be able to be
presented, that’s one scenario. Another scenario is that
the Court could conclude that the government—excuse
me, the Defense, if it asked for a continuance to be able
to gather the information to properly examine the
witness on DNA, this other scenario could be that the
Court says it’s willing to hear the evidence but the
defense says I’m not prepared and I’d like a continuance,
and then I turn to the government and say, you know,
do you wish to go forward, understanding that a
continuance may be necessary with presentation of your
witness, or do you wish to go forward simply on the DNA
certificates and the testimony of your case [33] agent—I
understand that even in that latter scenario the sanction
argument you have still applies, but there’s no longer in
that scenario the prospect of you feeling that you
rendered—you were incapable of being effective because
you didn’t have appropriate preparation to examine the
DNA expert?
MS. KATCHMAR: Your Honor, I can never waive my
client’s potential intent to raise an ineffective claim. So
all I can tell you is that I stand on our sanction ground.
He wishes to—I have already discussed the options with
Mr. Osby and he wishes to proceed to sentencing today.
THE COURT: Today?
MS. KATCHMAR: He does.

39a
THE COURT: Okay. You understand though the
difference between the Court hearing the testimony of
the expert versus the Court just considering the
testimony of the case agent about DNA being taken off
two items and submitted and here is a certificate?
MS. KATCHMAR: Your Honor, we submit that even
the Court hearing any testimony at all of DNA
contravenes the sanction that the Court gave.
THE COURT: Right. I understand.
MS. KATCHMAR: However, the government wishes
to present its case and how it presents that evidence I
can only do the best with what I know.
THE COURT: Got it. All right.
[34] Well, we’ve been here an hour and I need a
break. We will come back and see where we go. Thank
you. And you all feel free to talk.
(Recess taken from 3:35 p.m. to 3:45 p.m.)
THE COURT: Counsel, I guess I would start off this
way: With respect to the weapon and the narcotics found
in the hotel room, I’ve already addressed the acquitted
conduct issue. No. 1.
No. 2, I don’t feel like I need any DNA evidence to
make a preponderance determination on the issue.
No. 3, I think that the defense has a good argument
about—when I say good argument, it’s certainly easily
debatable whether the Court should hear from the DNA
expert under these unique circumstances of finding out
about it yesterday and the inability to prepare as desired
to be effective and the defendant’s desire to move
forward. I think that’s, there’s a good argument
regarding precluding the introduction of such evidence.
But I really don’t feel like I need it. So I guess that’s what
I would say to you.

40a
You can present your case agent, you can put on your
testimony about controlled buys, the weight versus
packaging issue for the September 27th incident, and if
you desire to go forward with the DNA evidence, I’ll be
forced to rule on it and will rule on it. But I’m just letting
you know where I am. Hope everybody understands
that.
[35] Do you all want to talk briefly? Why don’t you all
talk for a moment.
(Counsel conferred.)
THE COURT: Mr. Osyf? Happy to hear your
evidence.
MR. OSYF: Thank you, Your Honor. And if I may,
understanding the Court’s comment regarding the DNA
we will be calling the case agent as his testimony
pertains to the controlled buy—the controlled buys,
excuse me, and the drug weight minus the packaging
material.
Because of the Court’s words just a minute ago, we
will not elicit testimony regarding the DNA or call Ms.
Pollard, and I’ll ask in a moment for my agent to be
excused to excuse Ms. Pollard. However, in light of the
statements from the defendant, I would like to put on
the record, and I believe my colleagues would appreciate
it in case this ends up seeing the light of day down the
road on the government’s position regarding the defense
comments about inability to prepare regarding this
issue
and
the
quote,
the
sanctioned,
sanctioned/sanctioned issue if I may?
THE COURT: Sure.
MR. OSYF: Just briefly, Your Honor, discovery
included the DNA report sometime in January of 2019.
And understood, the government takes its up-andcomings when it’s deserved and understands the Court’s

41a
ruling in light of the late notice. However, for the
defendant to say that there was [36] inability to prepare,
having discovery and thinking the government was not
going to introduce evidence of definitive DNA on a
firearm and narcotics bag that was directly charged in
the indictment is, is unusual, to say the least. And again,
to say again, that it was unexpected to hear at
sentencing when it was addressed in the PSR, August,
earlier this month, again in both position papers on the
25th of September—or sorry in the original PSR in
August, again in the addendum PSR, again in our
position papers on September 25th, and even last night
giving notice, which the government did not have to do—
and with respect, the only reason it was so late last night
was because I was wanting to confirm that Ms. Pollard
was even available to come in today. Had that been an
issue or had I suspected that this wouldn’t come to the
Court’s attention, I would have addressed it sooner.
In light of that, as far as—the only other thing I’d
like to say is that the government’s—defense made the
argument that we get two bites at the apple here. We
vehemently disagree. We were sanctioned to not being
able to present this evidence at trial and we did not. We
complied with the Court’s ruling, of course, did not
present it at trial. But given that any evidence at
sentencing can be presented that has sufficient indicia
of reliability, which is hard to argue that definitive
forensic DNA analysis does not have sufficient indicia of
reliability, would not be presented at trial—at
sentencing, [37] again, is quite befuddling to the
government. I would say here the defense is arguably
trying to get two bites at the sanctioned apple saying,
well, we didn’t expect to prepare for sentencing because
we didn’t have to do it at trial. And just like to put that
on the record for the government.
THE COURT: All right. Let’s call your witness.

42a
MR. OSYF: Thank you. Government calls—may the
forensic analysis be excused? The scientist?
THE COURT: Sure. You can step out first and let her
know she’s free to go.
MR. OSYF: Thank you, Your Honor.
Government calls agent Cory Norton, Your Honor.
CORY NORTON, having been duly sworn, was
examined and testified as follows:
DIRECT EXAMINATION
BY MR. OSYF:
Q. Good afternoon, Agent Norton.
A. Good afternoon.
Q. Could you pull the microphone closer to you?
Thank you. Would you please introduce yourself to the
Court?
A. Special Agent Cory Norton at the Bureau of—I’m
sorry, I mean with the ATF.
Q. And how long have you been with ATF?
A. Since 2015.
Q. Mister—Agent Norton, I’ll try to be brief.
[38] Are you the case agent for the United States v.
Erick Allen Osby?
A. Yes.
Q. And are you familiar with the facts of the case?
A. Yes.
Q. And were you present during that trial, Mr. Osby’s
trial?
A. Yes.

43a
Q. And at trial, the government’s case focused
specifically on two dates, September 18th and
September 27th; is that right?
A. Yes.
Q. There was—there was not evidence presented
regarding a controlled buy on September 4th; is that
correct?
A. Yes.
Q. Are you familiar with the controlled buy on
September 4th?
A. Yes, I was aware that one was conducted.
Q. Could you just briefly tell the Court what you
know about the controlled buy on September 4th?
A. Just briefly, that controlled purchase was done by
a confidential informant at which time it was
approximately like one gram of crack cocaine and a half
a gram of heroin purchased.
Q. And that was purchased from whom?
A. Mr. Osby.
Q. And was there another controlled buy in this case?
A. Yes.
Q. And when was that?
[39] A. That was the day that he was arrested on
September 27th.
Q. And could you tell us what you know about that
controlled buy?
A. Specifically, that controlled purchase was to locate
Mr. Osby, is why it was conducted, at which time Mr.
Osby sold to a confidential informant approximately one
gram of heroin.

44a
Q. And do you recall where that was?
A. It was the 11—I’m sorry, 1000 block of 74th Street.
Q. Did surveillance continue after that controlled
buy?
A. Yes.
Q. And what happened then?
A. Mr. Osby exited out of a residence, he what we call
served up or sold to several other individuals prior to
entering the back of a vehicle in which he was arrested.
Q. And that part of the September 27th, that was
presented at trial; is that right?
A. Yes.
Q. Just another quick question. If you recall at trial
there were two labs, two lab reports regarding the
narcotics that were seized on September 18th from the
Extended Stay Hotel room; is that right?
A. Yes.
Q. I’d like you to take a look at what’s been
premarked as Government’s Exhibit 1 for identification.
Do you remember reviewing that lab report?
[40] A. I do.
Q. And when was that? Says Date Received. When
was that date received?
A. October the 4th of 2018.
Q. Could you please look at Government’s Exhibit 2
for identification?
What was that lab?
A. This is a supplemental report to the first lab.
Q. And why was there a supplemental report?

45a
A. The drugs were reweighed without packaging.
Q. And did you handle the drugs for that
supplemental report?
A. I initially orchestrated those, the reweighing of
the packaging. It was actually handled by our TFO
Amanda Moreland.
Q. And what was the difference in weight for, I
believe it’s the first item maybe went from 52, it went
down some, but what was the weight difference in that?
A. The initial date—I’m sorry, initial packaging or
narcotics with packaging for Item 1A1 was 52.32 grams.
The reweight of it without packaging was 49.67 grams.
Q. And what was the contents of that packaging or
that bag that was—excuse me, that item?
A. It tested and came back as heroin.
Q. Was there anything else regarding that item?
A. I’m sorry, it came back as heroin and Fentanyl.
Q. So Item 1A1 was a mixture of those substances?
[41] A. Yes.
MR. OSYF: Thank you. No further questions.
THE COURT: Ms. Katchmar?
MS. KATCHMAR: Your Honor, we would object to
the admission of those items based upon our prior. I
would incorporate all my prior objections.
THE COURT: All right.
MS. KATCHMAR: Thank you.
CROSS-EXAMINATION
BY MS. KATCHMAR:
Q. Is it Agent or Special Agent?

46a
A. It’s Special Agent.
Q. Okay. Special Agent Norton, let’s talk about
September 4th. This controlled buy took place day or
night?
A. I was not there for that controlled purchase so it
was done by a local agency.
Q. You have no personal contact with that
confidential informant?
A. No.
Q. Don’t know the name?
A. No.
Q. Don’t know the reliability?
A. No.
Q. Don’t know how much they’re paid?
A. No.
[42] Q. Don’t know how many times they have been
paid?
A. No.
Q. Don’t know whether or not they had met Mr. Osby
for the first time if, in fact, it was Mr. Osby, correct?
A. I have no knowledge if they met him before.
Q. Okay. And you have none of the controlled
substance in your evidence?
A. No.
Q. And it was not submitted to a lab to determine the
one ounce—
A. No, it was not one ounce.
Q. Excuse me. One gram. Thank you. The one gram
and the half a gram, correct?

47a
A. I have no knowledge to that. I was not part of that
controlled purchase. I became aware of that controlled
purchase on a later date.
Q. So no personal knowledge, no information about
the confidential informant or his reliability, right?
A. That’s correct.
Q. And none of the controlled substances?
A. As far as—
Q. From that controlled buy?
A. I was—I’m sorry. I’m confused about your
question.
Q. You didn’t take physical possession?
A. No, I did not.
[43] Q. And you don’t have them in your evidence?
A. That’s correct.
Q. And you have no knowledge whether or not they
were ever submitted to a lab?
A. That’s correct.
Q. To confirm whether or not they were the
substances alleged?
A. Again, I have no knowledge of that.
Q. Let’s talk about September 27th, 2018—
A. Yes.
Q.—the second controlled buy.
Prior to the controlled buy the residence at issue was
under surveillance, correct?
A. Yes.

48a
Q. Task force? By the task force? State and local
officials?
A. It was, yes.
Q. And federal?
A. No, it was of the OCD. So Newport News OCD.
Q. What is OCD?
A. It’s their Organized Crime Division.
Q. Okay. Were you present as well?
A. Yes.
Q. For the surveillance?
A. I was present for the surveillance portion that, not
for the controlled purchase portion of it.
Q. So you weren’t—again, thank you for saying that.
So you [44] weren’t part of the controlled purchase?
A. I was there for the controlled purchase. If you’re
asking
if I met the informant, no.
Q. Thank you. It’s late. I appreciate it, Agent Norton.
So you have no information about the informant’s
reliability?
A. No.
Q. There were no marked moneys on September 27th
that were used?
A. There may have been. I have no knowledge of that.
Q. And if, for your investigation, if there were, you
would have it in your evidence, correct?
A. We were not intending on taking any evidence
from that portion. He was actually—that controlled

49a
purchase was set up in order to take Mr. Osby into
custody.
Q. No knowledge of any criminal history of this socalled confidential informant?
A. I have no knowledge of anything about the
informant.
Q. And same with—I failed to ask that on September
4th. No knowledge of any—of the criminal history of that
confidential informant?
A. I have no knowledge of the confidential informant
at all.
Q. And as you said, nothing was seized September
27th, it was just this alleged buy that you knew about?
A. Nothing was seized by my office or personally by
me for [45] that controlled purchase.
Q. Correct. And so you’re relying on others for the
alleged weight of the substance, correct?
A. I would be relying on the members of OCD, yes.
Q. And you don’t have a lab report for that either for
September 27th?
A. I believe that was submitted. I don’t have that
personally because that’s, again, not what we were
charging.
Q. So you don’t know the findings on whether it’s a
true controlled substance or not?
A. I would have no knowledge that.
MS. KATCHMAR: No further questions.
Your Honor, we continue our objection and move to
strike any reference of those two controls buys.
THE COURT: So can you hold on, Ms. Katchmar?

50a
For fact questions, the standard is whether the
information presented has sufficient indicia of
reliability.
Well, you know, let me make sure there’s no other
questions first.
MS. KATCHMAR: Thank you.
THE COURT: Mr. Osyf, do you have any other
questions for this witness?
MR. OSYF: No other questions, and we ask that
Government’s Exhibit 1 and 2 be admitted.
THE COURT: All right. So Agent Norton, you can
have [46] a seat back at counsel table. Thank you.
So you can stay there.
MS. KATCHMAR: Okay.
THE COURT: The fact standard is whether there’s
sufficient indicia of reliability, and if there are, the
burden of going forward shifts. And so the evidence that
I have before me now is similar to what I frequently see
referenced in a presentence report. There was a sale by
CI such and such on such and such a date of X, right?
Essentially that’s about what I have.
MS. KATCHMAR: Maybe, but it’s whether or not
what I have and what you have in order to make a
determination of reliability by a preponderance of the
evidence. And here, what you have is this is not a guilty
plea where the controlled buys are just simply relevant
conduct. We’ve already objected to them being relevant
conduct, and now we’re at the point where the Court
said, well, I may consider it, so the government has to
show it by a preponderance of the evidence. So what I’ve
done, Your Honor, by my questioning is attack the
reliability. Where is there reliability when the
government’s agent has no knowledge of this

51a
confidential informant? I asked specifically about that
person’s reliability, their criminal history, their
credibility in terms of what they have received in terms
of payment, how they knew Mr. Osby, how many times
they may have met Mr. Osby.
[47] THE COURT: So your point is, if I understand—
MS. KATCHMAR: It’s unreliable.
THE COURT: Your point, if I understand it, is that
when the evidence comes before me in a presentence
report as relevant conduct where someone has pled
guilty, that what is necessary to satisfy the sufficient
indicia of reliability test may be different than when it’s
in a presentence report and there was no guilty plea and
the matter went to trial and there was a finding and an
acquittal on some and finding guilt on some counts? So
is that what you’re saying?
MS. KATCHMAR: Your Honor, I’ll not—because
first, just like Mr. Osyf has people, I have people. So I
can’t concede that for purposes of guilty pleas. What I
can say is that here I’ve already argued that evidence
was not presented to the jury, so it should not be
considered. The Court has overruled that. But now when
we are talking about sufficient indicia of reliability, the
government presented their agent who said I have this
information. In order—so the Court says, okay, I’ve got
some sufficient indicia of reliability, I have a federal
agent, he swore to tell the truth, he told the truth, it was
very candid, both with prosecution and with defense
counsel.
But then the information that the Court has to
consider is not just the witness before you, but the
reliability of the information that was presented. And
the information as it relates to this alleged controlled
buy—I understand that [48] one gram, half a gram here

52a
may not make a world of difference at the end of the day,
but it’s still an important fact.
THE COURT: So I think I get your point. Your point
is when there’s a guilty plea and the government
submits a lot of additional information to the probation
office, for example, about relevant conduct and drug
weights, it’s out there early, you know what it is, and
you have the opportunity to test it. Here, in the first
instance you’re hearing this today?
MS. KATCHMAR: No, Your Honor. I received
discovery on all of this throughout the proceeding.
THE COURT: Okay.
MS. KATCHMAR: And the government is correct, we
talked, I felt it was 404(b), they thought it might muddy
the waters and just make a cleaner trial. We had
different reasons for the evidence not being presented to
the jury. We’re all on the same page, I think, with that.
THE COURT: Okay.
MS. KATCHMAR: So the issue here now is
regardless of whether or not you have a federal agent—
the Court has already said, you know, I’m letting
acquitted or non-litigated information come in to the
presentence report for the reason previously stated over
my objection, which I continue. Now we have the
government having to establish by a preponderance of
the evidence the information for the Court whether or
not you should consider it. And I believe that based upon
my [49] cross-examination and the lack of the
government rebutting any of that, that there is no
reliability. We don’t have the information about the
confidential informant, how much they’re paid, their
credibility, the identification of the substances, the fact
that they weren’t seized at least by the federal agents
and tested and before the Court to determine anything

53a
about the weights. It’s really just, it happened. And it
happened isn’t enough. And so without any of the issues
that I raised on cross regarding reliability, we’re asking
the Court to find that it doesn’t have sufficient indicia of
reliability.
THE COURT: And your argument as to why it
happened and that’s not enough here versus me getting
the PSR when somebody pleads guilty and it says
confidential informant or source bought X amount of
drugs on such and such a day from the defendant?
MS. KATCHMAR: They usually have the drugs. To
be perfectly candid, Your Honor, they usually have the
drugs. We have the reports and we’re kind of like, it’s
time to plead guilty. Not to be flip or candid, but that’s
really how it is. Here, the drugs aren’t here. They
weren’t submitted. We don’t even know if they were
really controlled substances. And that would be
speculative to determine that, because at that point it
will just be a guessing game versus any reliable
information before the Court.
THE COURT: Thank you.
[50] It is different, isn’t it, Mr. Osyf? On these
confidential informant drug weights, they haven’t been
submitted.
MR. OSYF: I don’t believe it is always different, Your
Honor.
THE COURT: I said it is different. This is different.
MR. OSYF: And I’m saying I don’t believe it is that
much different.
THE COURT: Oh.
MR. OSYF: There are times, sure, where there’s
controlled buys, there are some times were controlled
buys might even be incorporated into the statement of

54a
facts that the defendant pleads to. That’s not always the
case. As Your Honor pointed out, there are times where
a defendant may plead guilty to Counts 2 and 3 and then
there’s additional, a whole host of relevant conduct
that’s incorporated in the PSR. And there might not be
discovery on those items. And that’s, again, why it is
perfectly right for sentencing and perfectly, you know,
the Rules as the Court illustrated earlier, I forget the
first case, but in Powell, that you can’t just make—
defense can’t just make objections without some sort of
indicia of unreliability what’s contained in the PSR.
THE COURT: And what’s your information you have
that the September 4 buy was cocaine and heroin?
[51] MR. OSYF: We have—well, all that’s presented
before the Court was today’s testimony because we opted
not to present evidence on that at trial for, again, as
defense counsel pointed out, the government and
defense had their different reasons for agreeing to not
present that at trial. Didn’t feel that it was necessary to
go forward, otherwise we could have. And again, Your
Honor, as Your Honor pointed out, which I believe
hearkens back to one of your initial questions you asked
defense counsel in the beginning was, again, so are the
parameters for sentencing completely different when
you have someone, a defendant who chose to go to trial
and continues their—to be not guilty as opposed to
someone who pleads.
THE COURT: Okay. I’m with you. I understand the
arguments.
MR. OSYF: Thank you, Your Honor.
THE COURT: Thank you, Mr. Osyf. Thank you, Ms.
Katchmar.
The objection is sustained. I find that there are
insufficient indicia of reliability with respect to

55a
substances attributed to the defendant through these
confidential informant purchases on September 4, 2018
and September 27, 2018.
And that then takes us, I think, to the premise
enhancement.
Madam Clerk, did you have something?
(Court and courtroom deputy conferred.)
[52] THE COURT: Okay. Premises enhancement, of
course, the defendant has objected to the two-level
premise enhancement for maintaining a premise for the
purpose of drug distribution. And the position
statements, originally I think the defendant indicated
that it was unclear which of the premises we’re talking
about. I think it’s Paragraph 101 perhaps that clarified
that it was the hotel room which formed the basis for the
premises enhancement here. And on the hotel room at
the Extended Stay America, defendant argues that he
merely visited the room, but another person rented the
room and others had access to the room. And the
defendant argues that the government has failed to
present evidence, for instance, the door key log was not
examined or preserved, and it was not known when the
last time the defendant was in that room. So those are
the arguments that have been made so far in the
position papers.
Ms. Katchmar, do you have anything else you want
to comment on regarding that?
MS. KATCHMAR: No, Your Honor. We stand on our
argument and our objection.
THE COURT: Okay. Mr. Osyf?
MR. OSYF: Same for the government, Your Honor.
And it is the hotel room that the government was
referring to, given the items that were seized there and
in accordance with our paper.

56a
THE COURT: Okay. Well, the parties have
extensively [53] briefed all of these issues, and the Court
sat through the trial in this matter at the courthouse.
And so let me take up the points.
Here, the evidence showed that the defendant wasn’t
merely a visitor to the hotel, and the room at the
Extended Stay America, while a co-conspirator
originally rented the room, it was the defendant who
later extended the lease by paying for the room in cash.
And we heard direct evidence of that from the gentleman
from the hotel during the trial. This is evidence that the
defendant had the possessory interest in the premises as
the hotel guest or tenant. The testimony from the hotel
staff members at trial and the suppression hearing on
defendant’s motion in limine indicated that they saw
him frequently at the hotel, they considered him to be
the hotel guest and the occupant of the room.
The Court also has to consider whether the
defendant’s, whether the defendant controlled the access
to the premises or controlled activity there. In the
Fourth Circuit’s decisions in Clark and Christian, they
looked at whether the defendant regularly stayed at the
premises and whether the defendant had access to the
premises as indicators of control. Both exist here.
Testimony from the hotel staff indicate that the
defendant stayed at the hotel room and they regularly
saw him. Further, he had a key card that had access to
the room and continuously accessed it during the
conspiracy. This, of [54] course, was the subject of the
dispute with hotel staff on that final day, September 18,
when the defendant was locked out of the room after the
hotel employee was cleaning and witnessed all the
contents and after he was locked out of the room and his
key card no longer granted him access.
Other evidence also indicates that the defendant
controlled access. On the morning of September 18 and

57a
at other times during his tenancy, the defendant was
with other individuals that he brought to the room,
according to the evidence the Court heard.
On all the facts, it appears the defendant has
maintained and controlled access at the premises and
the enhancement is therefore properly applied and that
objection is overruled.
That brings us to the issue of the denial of federal
benefits. And I don’t know if you all have anything else
you want to offer on that, but frankly I’d rather take that
up as part of sentencing and imposition. But if you have
anything else you want to comment on regarding that
now, you can do that, Ms. Katchmar?
MS. KATCHMAR: No, Your Honor, I will incorporate
it in my 3553 argument.
MR. OSYF: Nothing further from the government.
We understand it’s perfectly within the Court’s
discretion, Your Honor.
[55] THE COURT: All right. And then you all also
have your argument on upward departure, and of course
you’ll have to make that as part of your 3553 comments.
And so I think I’ve ruled on everything presented. Ms.
Katchmar, have I covered your objections?
MS. KATCHMAR: Your Honor, we raised an
objection as to the gang affiliation.
THE COURT: Oh, yes. Thank you. So did you all
have any further evidence or comments on that?
MS. KATCHMAR: Your Honor, we would
incorporate our position. If the Court wishes to us to
reiterate it on the record versus Document 69, I would
be happy to do that.
THE COURT: If you have nothing new, I’m fine with
considering what’s been offered already.

58a
Mr. Osyf, do you have anything new?
MR. OSYF: Nothing new, Your Honor, and the
government stands on probation’s position for why it
was incorporated.
THE COURT: All right. So these gang affiliation
objections that the Court receives are perhaps
multifaceted, but the way that I look at them is that the
indication is of significance to the Bureau of Prisons
because of the fact that you want to be careful not to
house people in rival gangs together. So it’s an effort to
protect the inmate from harm. Some may argue that it
has additional significance for the Court. Because the
indication on presentence reports is not [56] that the
person is a member of a gang but that they have some
affiliation with gang it, in my personal view, absent any
other significant information in a presentence report, it
doesn’t really have great significance to me or any real
significance to me, frankly, in my sentencing
determination. But it’s important for the Bureau of
Prisons to know, because even if a person is not a
member of a gang but they are affiliated with a gang,
they may still be subject to violence and recrimination
in a prison setting from any rival gangs, and to the
extent that rival gangs are known, there’s efforts made
to protect inmates.
The defendant has additional concerns about the
impact his Bureau of Prisons designation would have on
him, and it may restrict him from educational and other
programs within the Bureau of Prisons system. And the
presentence report, and as referenced in the
government’s position paper, reflects that the
designation of the defendant having some affiliation
with this 76th Street Crips, is based on Hampton Police
records that indicate the defendant frequents known
gang areas, has been associated with and
simultaneously arrested with other gang members. And

59a
that’s the basis for it. There is no additional evidence
presented to the Court. And so at a threshold level on
the issue of simple gang affiliation, for purposes of
inclusion in the presentence report, the Court overrules
the objection. It is for the defendant to take up as he may
wish designation issues with the Bureau of Prisons or
the effects of that on the [57] availability of programs.
So I think that’s everything.
And Officer Geurts, would you step up here for a
moment?
(Court and probation officer conferred at sidebar.)
THE COURT: All right. So counsel, to reflect the
rulings of the Court, Paragraph 19 has been changed so
that the one gram of crack cocaine is removed and the
heroin is now 154.84 grams of heroin.
Page 8 Paragraph 26, the crack cocaine comes out.
Heroin is 154.84 grams all the way across. And then the
total is 297.95 kilograms.
And Officer Geurts, was that it?
PROBATION OFFICER: Yes, Your Honor.
THE COURT: Thank you. All right. You all with me?
MS. KATCHMAR: Your Honor, I would ask that you
also strike Paragraph 6 and the information related to
controlled buy in Paragraph 13 as well.
PROBATION OFFICER: Your Honor?
THE COURT: Yes.
PROBATION OFFICER: Would the Court consider,
rather than striking, noting that because there’s a lab
report the defendant will not be held accountable for the
suspected narcotics?

60a
MS. KATCHMAR: We object to the probation
officer’s [58] recommendation based on the Court’s
ruling of indicia of reliability.
THE COURT: I don’t have any problem, frankly,
with striking Paragraph 6. Paragraph 13 provides
context for Paragraph 14. So I’m going to modify it.
Paragraph 6 is struck. Paragraph 13 I’m going to modify
it as follows. “On September 27th, 2018, members of,”
and then it describe those members, “utilized a
confidential source to,” and I’m going to say “attempt a
purchase of narcotics,” and then strike the rest. And that
provides context. And then of course, as I said, that
provides the context for Paragraph 14. So it now reads,
“After CS No. 2,” it reads, “to attempt a purchase of
narcotics from the defendant, period.” And then the rest
is struck. And you go on, Paragraph 14, “Following the
controlled purchase, the defendant remained,” and I’ll
say “the attempted controlled purchase” in that
paragraph.
All right. Happy to hear you all’s arguments after I
summarize for you where we are.
So I adopt the factual statements with the
modifications based upon my rulings, and those are now
reflected in the presentence report as the Court’s
findings of fact.
The statutory ranges established by Congress and
the President for the counts of which the defendant has
been found guilty are as follows: For each of Counts 5
and 6, a maximum term of 20 years imprisonment. As
for supervised release, [59] Counts 5 and 6 each include
a period of supervision of at least three years and
authorize a maximum of lifetime supervision.
Does the government agree I’ve accurately stated
that?

61a
MR. OSYF: Government agrees, Your Honor.
THE COURT: Does the defense?
MS. KATCHMAR: Yes, Your Honor.
THE COURT: Now, operating within this statutory
range established by Congress and the President are the
guideline ranges—or I should say, is the guideline
range; that is, based upon application of the advisory
sentencing guidelines promulgated by the United States
Sentencing Commission. Application of the guidelines in
this case results in an offense level of 28 and a criminal
history category of II, and the resulting advisory
guideline range would be 87 to 108 months of
imprisonment.
Does the government agree I’ve accurately stated
that range?
MR. OSYF: I agree that the Court has accurately
stated that range, yes.
THE COURT: Does the defense? Based on my
rulings, I should say.
MS. KATCHMAR: Based on your rulings and over
our continued objections, yes.
THE COURT: All right. I’m happy to hear any
additional evidence or argument you may have. Does the
[60] government have any evidence or just argument?
MR. OSYF: Just argument, Your Honor.
THE COURT: Does the defense have additional
evidence or just argument?
MS. KATCHMAR: Your Honor, as the Court
considered our character letters, Exhibits 1 and 2, I
would simply now move them officially into evidence
since the Court has considered them.

62a
THE COURT: Now, they’re attached to your position
statement?
MS. KATCHMAR: They are, Your Honor, but I am
moving them in fully as evidence for the Court’s
consideration.
THE COURT: Okay. Are you asking them to go to the
Bureau of Prisons?
MS. KATCHMAR: No, Your Honor, I am not.
THE COURT: So they’re admitted respectively as 1
and 2, grandmother’s letter No. 1, Mother’s letter No. 2.
(Defendant’s Exhibits Nos. 1 and 2 received in
evidence.)
MS. KATCHMAR: Thank you very much.
THE COURT: Okay. And Madam Clerk those are
attached to the defendant’s position paper.
COURTROOM DEPUTY CLERK: Yes, sir.
THE COURT: Mr. Osyf.
MR. OSYF: Thank you, Your Honor. Considering the
[61] 3553(a) factors before this Court, the government
respectfully asks the Court to apply a sentence of 137
months of incarceration and feels that that’s sufficient
but not more than necessary to assure the ends of justice
in this case.
We stand on our paper, and as far as the nature of
the offense goes, I think the offense of conviction alone,
the distribution of two narcotic substance, heroin and
cocaine, are excessively dangerous, and when considered
in context with the acquitted and relevant conduct that’s
important to apply here, that nature of the offense
increases exponentially.
The history and characteristics for the Court to
consider, the government understands that the

63a
defendant has a history of violence and anger issues, but
largely no corroborated mental health issues, according
to the PSR. There is some mention of trying to get into a
place for treatment using suicidal tendencies and then
later retracting that. There are lots of references to, from
family members as well as employers and schools as far
as anger and violent tendencies and having difficulty
with things. But these are all issues that the defendant
can get treatment for in the BOP and hopefully will.
That, along with some other minor drug abuse issues,
other than that, the defendant is in good health by all
accounts. He’s young, he’s capable, and he has chosen
the path that he has walked on as far as his recidivistic,
dangerous behavior commencing at the time he was 13
over a decade of [62] offense after offense after offense,
most of which are violent in nature or gun related. And
this is why, this gets into why the government asks the
Court to consider an upward departure here. As noted in
our paper, Section 4A1.3(a)(1) of the guidelines
authorizes such upward departures when reliable
information indicates that the defendant’s criminal
history category substantially underrepresents the
seriousness of a defendant’s criminal history or the
likelihood that the defendant will commit other crimes.
Not only is that in the guidelines, but it’s also in United
States v. Whorley, 550 F.3d 326, Fourth Circuit case
from 2008 noting that an under-representative criminal
history category is an encouraged basis for upward
departure. And that’s exactly what we have here, not
only from the government’s position, but it’s also noted
in the PSR. And while probation can’t, as noted in the
PSR in Paragraph 102, does not constitute a
recommendation by probation, however, there are
factors that may warrant departure, and Paragraph 104
reiterates just what the government put on the record
regarding the drug, firearm and violent history. Six
juvenile offenses that were not adjudicated based on and

64a
did not receive any criminal history points due to time
constraints. Misdemeanor offenses and felony
convictions for drug offenses and over 20—or sorry, 20
unrelated offenses, many of which involved alleged
violence of firearms dismissed, that were dismissed or
nolle prossed.
[63] In the government’s paper—I won’t belabor the
point—but we cited Fourth Circuit case law where there
have been similar instances of upward departures that
increased by 200-plus months, 240 months in the case of
United States v. Meyers, 589 F.3d 117, and another,
United States v. Lawrence. Government’s not asking for
an increase of 200-plus months in this case, Your Honor,
but 29 months.
The other reason for requesting that upward
departure, which I’ll get to later on, is we’ll touch upon
the avoiding sentence disparities, but our argument for
an upward departure is twofold. One of which falls
within his criminal history category which I just stated,
and the standard of which as the Court is well aware is
one of reasonableness. And were the Court to make an
upward departure in this case and were it to be
appealed, the Fourth Circuit has said that in reviewing
a departure from the advisory guideline range, we defer
to the trial court and to then reverse a sentence only if
it is unreasonable, even if that sentence would not have
been our choice. That comes from—excuse me. That
comes from United States v. McCoy, and they’re quoting
United States v. Evans, both Fourth Circuit cases, one
from 2015 and 2008, respectively.
The addition of 29 months is not unreasonable in this
case, Your Honor and the Fourth Circuit would uphold
such an upward variance.
By way of contrast, in United States v. Howard, the
[64] Fourth Circuit shot down an upward departure

65a
where the trial court imposed a life sentence where the
maximum guideline range was 121 months. It’s quite
different than we’re asking here from 10 years to life,
from 108 months to 137, especially when considered
with the avoiding sentencing disparities which I’ll get to
in a moment.
Largely, the history and characteristics which
defense focused on in their position paper almost
exclusively does not outweigh the other factors for the
Court to consider here: The nature of the offense, need
for punishment, deterrence, the need to protect society.
These are egregious crimes, and again, recidivistic
behavior for over a decade. Undeterred recidivistic
behavior, Your Honor. And escalating, I might add.
That gets to the need for punishment. Again, over a
decade of continued criminal activity. This flows right
into deterrence. Clearly this type of conduct, it is the
duty of the government and this Court to deter
generally, but specifically this defendant is not deterred.
Has not been deterred. Time and time and time again he
continues his criminal conduct. And even if this
particular case, Your Honor, upon our viewing
downstairs on September 18th with not being able to get
back into his room and being notified that the police
were on his way, the defendant ran. And a week later,
Your Honor, a week later, was then arrested with
another firearm, another supply of drugs and surveilled
continuing to distribute heroin on the [65] streets.
Counts 5 and 6 of which he was convicted. Distributing
that heroin and cocaine on September 27th, a week after
he ran from authorities and abandoned $17,000 in cash
and an abundance of narcotics and another firearm and
his IDs in a hotel room. The need for deterrence here is
quite high.
Need to protect society. Again, Your Honor, these are
considerably dangerous offenses, especially when

66a
considered the conduct and the narcotics found in the
hotel room. Over 48 grams of a mixture including
Fentanyl, which is lethal both to users and distributors
alike. People are dying left and right dealing with this
particular substance.
And that brings us to avoiding sentencing
disparities, Your Honor. Your Honor, we’ve talked about
the DNA in this case. We understand the reasons why
that was not presented at trial and why it was not
further impressed upon this Court here at sentencing
today. But the fact that but for the government’s
compliance with the understanding and respect for the
Court’s ruling, presented a case with one hand tied
behind its back with conditionally—with exceptionally
incriminating evidence of DNA on a firearm and
narcotics on a quantity of Fentanyl more than 48 ounces
which is a (b)(1)(B) felony.
MS. KATCHMAR: Your Honor, we would object to
him being able to argue that at all and Monday Morning
Quarterback that issue, and I move to strike his
argument.
THE COURT: Well...
[66] MS. KATCHMAR: I understand his argument,
Your Honor.
THE COURT: You know, I understand why you’re
upset by it, and I’m certainly going to give you the
chance to reply to it, and I’ll make my comment on it.
Go ahead, Mr. Osyf.
MR. OSYF: Thank you, Your Honor. And but for an
understandable procedural error on our part which the
government accepts, there’s a high probability that the
defendant would be looking at a mandatory minimum of
10 years based on that evidence alone. And that’s
something that clearly can be considered. Whether or

67a
not the Court does or not is clearly in the Court’s
discretion. But to consider that 10 mandatory minimum,
10 years, and that would be on top of the 87 to 100—or
108 months guideline range recommended by probation.
Again, similarly, the Court, as we’ve talked about,
can consider evidence by a preponderance, and that
includes the firearm found on September 27th in the
vehicle. Evidence was put before the jury that there was
a firearm located with the defendant’s—what the jury
clearly found was the defendant’s white Nike bag,
because they found him guilty of the substances
contained therein. The firearm was located on top of that
bag with his firearm, with his, the defendant’s phone on
top of that firearm, no one else in the back seat, a child
seat in the back seat so no one else could sit in the back
seat, and two users up in the front seat who were not
distributing, but evidence was [67] presented that the
defendant was sitting in the back seat and distributing
narcotics to the two users in the front. Had the jury
found for the 924(c) as charged, that would have been
another mandatory minimum of five years. Again, we
understand that he was acquitted of that charge, and we
understand that the burden of proof is different here at
sentencing. But it’s something for the Court to consider.
Again, that the defendant could be looking at up to 15
years mandatory minimum on top of the recommended
guidelines range here, and from that, it should be
considered. We understand the Court is to consider each
defendant individually, but to avoid sentencing
disparities of defendants similarly situated, the upward
departure, the government feels, is warranted here,
reasonable here, and increasing by a mere 29 months
above the guideline range for the offenses of conviction
is sufficient and not more than necessary to accomplish
sentencing goal here.

68a
THE COURT: All right. Why don’t we move on to any
facts you want to argue.
MR. OSYF: Honestly, Your Honor, the Court sat in
front for the jury trial.
THE COURT: You don’t have to.
MR. OSYF: No, I don’t believe there’s a need to
resuscitate what’s already before the Court.
THE COURT: All right.
MR. OSYF: Thank you, Your Honor.
[68] THE COURT: All right. Thank you, Mr. Osyf.
Ms. Katchmar?
MS. KATCHMAR: Your Honor has made its rulings
and we will continue our objections, and I will now
address this in terms of 18 United States Code, Section
3553.
THE COURT: Happy to hear from you.
MS. KATCHMAR: Thank you, Your Honor.
Your Honor, in Gall v. United States, the Supreme
Court explained, as I said before, that the guidelines
should be the starting point and the initial benchmark.
Here, 87 to 108 after the Court ruled. However, giving
both parties a chance to argue for what they deem
appropriate, the Court should consider all of the
sentencing factors under 3553(a), and in so doing, the
Court may not presume the guideline range is
reasonable. And that’s at 596, 597 of that cite. And Your
Honor, they are not reasonable.
Further, Your Honor, as set forth in Kimbrough, 128
Supreme Court 558, while a district court must include
them, it may also vary. And we are asking the Court to
vary to 24 months.

69a
However, Your Honor, what strikes counsel is that
here we are in 2019, Booker was decided in 2005, we
have a charge which carries no mandatory minimum,
that we’re not talking about where in the probation the
20 years we should be, but we’re still using the language
of the guidelines, departures, [69] variances, upward,
downward, when Booker shows, what all the progeny
shows, when even now where the Commission knows
that its sentencing structure is at the heart of need and
change, we need to look at our language. So let’s look at
the language.
If the Court looked at only what was convicted,
offense level is 16, which I bring from my papers and
incorporate, that would be 24 to 30 months. With the
Court’s enhancements, substantially higher—or sorry,
with the Court’s finding, 87 to 108.
Now the government argued for its upward
departure—again that language—and argued what’s 29
months? Your Honor, we’re not talking numbers, we’re
talking someone’s freedom. And the fact that they
pursued their Constitutional right to trial and they from
a jury received due process, even if we disagree with
what they came forward to and will appeal, we’ll appeal
on that, the government did not object in the
presentence report to the criminal history category, so
we ask the Court to summarily discard that as a basis
for an upward departure, because if they had an
objection, they should have lodged it just as the defense
did. They cannot now go back, just as they want to go
back and have the Court fix what the jury did not do.
Just as a fair trial was tried to be had for Mr. Osby, so
too for the government.
Now here we are. Only two charges of conviction. By
no means should 18 United States Code Section 3661
prevail over [70] a 3553, and instead when read
together, 3553 tempers and contextualizes how the

70a
Court should consider the information in arriving at a
sentence that is sufficient but not greater than
necessary.
We submit that the 24 months is appropriate for
several reasons. First, it did not come in a vacuum. It
tried to look at what the Guidelines would say if only the
acquitted conduct was considered.
Second, the jury did not just reject possession with
intent to distribute on the September 18 charges, but we
intentionally submitted the lesser-included offense of
possession, and that too was summarily rejected. The
government now says, well, I had my hand behind my
back with DNA. Granted, he accepted responsibility for
the late disclosure, but this could have, would have,
should have been a mandatory minimum here, a
mandatory minimum there, and then the jury would
have found my way. We’re not here to Monday Morning
Quarterback the jury’s determination.
Under 3553, the nature and circumstances of the
offense before the Court should be that on September
27th, in a car, Mr. Osby was found, and he was found
with those drugs for which he should only be attributed,
which return the base offense level of 16.
Now, in reflecting the seriousness of the offense—I’ll
get back to the personal history and characteristics –
and [71] promoting respect for the law and providing
just punishment, here is a concern that I must raise with
the Court. The arguments that we hear today about
heroin and Fentanyl are the exact same arguments we
were hearing about cocaine and crack cocaine in the
early 2000s and late ‘90s. Frankly, almost before then.
And we’ve been back in 2010 and 2012 and 2018 and ‘19
to try to rectify what the guidelines created in attempts
to fix what was deemed a policy, a factual crisis. But at
what cost to what individuals?

71a
This is a serious offense. Mr. Osby is now a federal
felon. He was not a felon when he was arrested on
September 27th, 2019. His conviction for a felony drug
offense did not occur until subsequent to that.
In addition, Your Honor, promoting respect for the
law, just as the Court sentences Mr. Osby for the actions
that the jury found, so too respect for the law is respect
for the Constitutional role that the jury played in this
case. And providing just punishment is just punishment
for the behavior that Mr. Osby is before the Court here
today, not what could be, what might be, in the future.
And I’ll get to protecting from future crimes.
Now, deterrence is both general for people out there
who might be involved—Mr. Osby has been in custody
over a year now—but also specific. And all of the
empirical data shows that the length of the sentence is
not what deters, but [72] individually a sentence that is
sufficient but not greater than necessary for this person
at this time with these facts. But I also want to talk
about deterrence in terms of deterring people from
choosing to go to trial, such that people who might be not
guilty of certain crimes would forego that because of the
potentially hollow ring that the guidelines allow for
what is a Constitutional tenet, a foundation of our
criminal justice system. And we submit that, looking at
3553, including acquitted conduct in the Court’s
consideration beyond the calculation of the guidelines,
potentially ring hollow for the Fifth and the Sixth
Amendment that Mr. Osby and all persons in our courts
enjoy.
When we look at protecting the public from future
crimes, we would submit that the argument of past
being prologue with Mr. Osby is simply not the case. He
is a young man. He is 24 years old. He is one month from
his 25th birthday. He will be 25 next month. His
experience in this case, he’s never been in custody for

72a
this period of time. Frankly, maybe a day here, a month
there. But he’s been in custody for a full year. And what’s
important and that I ask the Court to note when we’re
talking about a violent or scary individual. Mr. Osby
appears before the Court in a blue jumpsuit. He’s at a
minimal level and always has been at the Western
Tidewater Regional Jail. Believe me, probation does an
excellent job when they get the record from the jail, and
you have nothing in front of you [73] showing that he’s
been anything other than model while in custody. In
fact, trying to pursue his GED to better his life. That’s
moving forward. That’s not past as prologue, that’s
looking to the future.
Your Honor, past conduct simply with no conviction
or no charge with law enforcement does not equate to
guilt of those crimes at the time, and the Court will note
that probation put allegedly because we don’t have all
the fact. As the Court knows and what we argued in our
papers, is that often when an initial police report is
written at the beginning of the case, the investigation,
as it continues, rarely is containing the whole story from
the beginning and it must move forward.
When we talk about Mr. Osby’s personal history and
characteristics, I would say over my right shoulder you
have to the far—to the Court’s left, his grandmother,
Pearl Osby, who wrote a letter to the Court; his mother,
Rene Osby, who came up here from North Carolina. She
was at trial every single day, Your Honor, and also
Courtney Cook, Mr. Osby’s lady friend, and she too was
in court every day—
THE COURT: Good to have you all here.
MS. KATCHMAR:—and they continue to be here.
Thank you, Your Honor.

73a
So when we look at his past personal history and
characteristics, I tried to be very detailed in our position
paper that we disagree with who Mr. Osby is. Not
disagree with [74] what was put in the presentence
report, but in terms of how the government sees Mr.
Osby. That’s why there is two sides here at sentencing
to every story. Mr. Osby did not have a continuous
upbringing in one home with a nuclear family and not
moving around a lot, not changing schools. There was a
lot of that. And that’s in the presentence report that you
have.
In addition, the question is when he did start acting
out? And I have to tell you, Your Honor, Ms. Geurts, she
digs. I mean, I’ve seen a lot of her presentence reports.
She digs. And nowhere in here do I see where anyone
throughout his upbringing really said why. During some
of the juvenile contacts they might have said you need to
do this, you need to do that, but other than one juvenile
evaluation, that’s it. So I think there are a lot of whys
that need to be asked and answered. But we cannot
assume that because he’s before the Court here today on
this sentencing that he is simply someone who needs to
go to prison for a long time and stay out of the
community, certainly not at 24 years of age, almost 25,
when there are so many opportunities to promote
rehabilitation.
So with that I will address this: First, the Court may
have noted in my position paper I raised the program
with the Bureau of Prisons called the Brave program.
Did the Court have an opportunity to see that and
review this?
THE COURT: Yes, I read your paper.
MS. KATCHMAR: Thank you. And Your Honor, we
would [75] ask the Court—and I’m sorry, Your Honor,
just getting into it a little bit.

74a
Your Honor, I would ask the Court to consider
recommending the Brave program. I’m zero for three
with the recommendations, meaning the judges have
done it, but the Bureau of Prisons has not. And my
understanding is mainly it has to do with resources and
availability in the program and not because of the
recommendation of the individual. So I would ask the
Court to consider that.
There is a substance abuse issue here. So I would ask
the Court to consider RDAP there.
I would ask the Court to consider all sorts of any
educational, vocational treatment. Mr. Osby, for having
struggles with the testing, I can tell you has the
capability to go much beyond his GED and reintegrate
as a very productive individual.
But that brings me to the denial of federal benefits,
Your Honor. It’s rare that we see that recommendation
in presentence reports, and I have to be candid, it’s the
first time in almost 10 years that I’ve even it. I would
ask the Court not to exercise its discretion and deny
them. Because it is so important as promoting
rehabilitation for the educational, the vocational
programs that would be out there through federal
programs even with a felony conviction for Mr. Osby.
Now I want to get to the—I’m hurrying. I’m sorry,
[76] Your Honor.
I want to get to the government’s request for an
upward departure. Your Honor, putting aside their
criminal history argument, Your Honor, the criminal
history is appropriate. Category II. It was calculated
appropriately, there was no objection to it. In terms of
going up because of all the other contacts and all the
other history, the courts hear that all the time. But to
simply take things that were dismissed and say were
nolle prossed, which is dismissed without prejudice in

75a
the state, well, that still makes him a violent, terrible
person, does not promote respect for the law. Because
there are reasons why those cases did not go forward.
And it’s not for—we would submit it is not for any of us
to put our judgment in there. And it’s not just 29 months
they’re asking for, Your Honor, it’s well above any time
that includes acquitted conduct. Not just numbers. So
with that, Your Honor, we would submit that it creates
sentencing disparity to not only consider the 87 to 108,
but it also creates a sentencing disparity to go even
higher, because the government’s argument was if we
could have done this, we would have gotten a mandatory
five years, if we could have done that we could have
gotten another 10 years. And that’s not what’s before the
Court.
THE COURT: You know, that’s not an argument that
I’m considering, so you really don’t need to address it any
further.
MS. KATCHMAR: Thank you very much, Your
Honor.
[77] So with that, Your Honor, we submit that a
sentence of 24 months with three years of supervised
release is sufficient but not greater than necessary in
this case. Thank you.
THE COURT: All right. Why don’t we have your
client join you at the podium.
Was there something else?
MS. KATCHMAR: Did I ask for a mental health
evaluation and treatment, Your Honor?
THE COURT: You did in your position paper, but not
here, so...
MS. KATCHMAR: Thank you. My apologies.
THE COURT: I think you did in your position paper.

76a
All right. Mr. Osby, do you want to talk to your
attorney for a moment?
(Counsel and defendant conferred.)
THE COURT: All right. You have the right to make
a statement. You don’t have to, it’s up to you, but if you
want to, this is your last opportunity to do that before
sentencing. Do you wish to make a statement?
THE DEFENDANT: No, Your Honor.
THE COURT: All right. So the Court will go forward
with sentencing. And Ms. Katchmar, any reason the
Court should not impose sentence at this time?
MS. KATCHMAR: No, Your Honor. Thank you.
THE COURT: All right. I will review the statutory
[78] sentencing factors. They are designed to ensure that
the sentence imposed is sufficient but not greater than
necessary to comply with all the purposes of sentencing,
which we refer to as the parsimony principle. I won’t
recite all of them, I’ve considered all the factors, and I’ve
considered all the defendant’s and government’s
arguments regarding the guideline calculation and
where the sentence should fall, within or outside the
guidelines. As is my custom, I will use the presentence
report as a template for considering the factors.
So the defendant stands before the Court having
been convicted by a jury of possession with intent to
distribute heroin and possession with intent to
distribute cocaine. He’s been detained in state custody
from 9/27/2018 to 2/22/2019 and in federal custody since
that time and is now 24 or 25, Ms. Katchmar?
MS. KATCHMAR: He’s 24. He’ll be 25 next month.
THE COURT: In November. Okay.
And so we’ve spent quite a bit of time here today
talking about a lot of the nuances of the objections and

77a
the legal issues, but the evidence at the trial of course
was focused on the incident on September 18, 2018 at
the hotel room. We’ve also discussed here the fact that
the not guilty beyond a reasonable doubt findings came
back from the jury on those counts. And then the events
that took place later on September 27, 2018 were also
the subject of the evidence, and [79] the subject of the
finding of guilt beyond a reasonable doubt that was
made in the case.
You know, this is the time for me to comment on the
nature and circumstances of the offense and the
defendant’s history and characteristics. And so we all sat
through the trial, we heard the evidence. It’s of no use, I
think, for me to sit here for 30 minutes and once again
talk about the nuances of the evidence that we heard.
It’s in the presentence report and we heard it. But I do
want to make a comment sort of at a high level about the
acquitted conduct argument, and just for purposes of
sentencing how do I see it. Because I think that’s
beneficial, and it does fall under the 3553(a)
determination also.
So you know, in our system of justice the government
has, at the state and federal level, in our state the
prosecutors, the Commonwealth’s Attorneys are elected
by the citizens. In the federal system the U.S. Attorneys
are appointed by the President and subject to
confirmation by the U.S. Senate after having been
nominated. And so there are those executive kind of
functions. And so they make decisions, those people that
are put in office as a result of the decisions made by the
voters at various levels are placed in office and make
decisions about what they’re going to pursue, who
they’re going to ask the Grand Juries to indict, and they
do that. Separate and apart from the court. The court
doesn’t have a role in [80] making that original decision
about whether they’re going to prosecute somebody.

78a
They bring those charges before the Grand Jury, and if
the Grand Jury returns the indictment and it comes
back, we move forward with the case. The question at
that point presented to juries is whether or not the
defendant is to be found guilty beyond a reasonable
doubt of a particular crime. In this case, the jury found
with respect to some of the evidence that was presented
that it satisfied the burden of showing guilt beyond a
reasonable doubt. With respect to some other evidence
and other charges, the jury found that the evidence did
not prove guilt beyond a reasonable doubt. The defense
has today put before the Court the Constitutional and
the I suppose you might say equitable arguments about
the degree to which the Court should or shouldn’t even
consider and/or weigh in its determination evidence that
relates to the charges on which the defendant was found
not guilty beyond a reasonable doubt. And the debate, in
essence, is whether or not, in the Court’s role of deciding
what is an appropriate sentence using the statute and
all these factors the Court is to consider, the statutory
sentencing factors, whether the Court should—can and
should consider the conduct for which the defendant was
found not guilty beyond a reasonable doubt.
The standard of not guilty beyond a reasonable doubt
is a different standard than preponderance of the
evidence, and the guidelines adopted by Congress and
the President and upheld [81] by the Supreme Court,
which are advisory, not binding, provide that the Court
may consider conduct even if it has been acquitted; that
is, even if a jury has found it’s not enough for a finding
of guilt beyond a reasonable doubt, that the Court can
still consider that conduct if the Court finds the conduct
to have occurred based on a preponderance of the
evidence standard as opposed to the beyond a reasonable
doubt standard. And I certainly understand the reasons
why someone would question why a court should be able
to consider that evidence in any way when a jury has

79a
found it wasn’t enough to satisfy the burden of proof
beyond a reasonable doubt.
I guess the way that I look at it is the jury is given
this set of facts, and the question is is the person guilty
of the violation of this particular statute. And to find
them guilty of violating that statute criminally you have
to find the evidence is sufficient beyond a reasonable
doubt. That they’re guilty beyond a reasonable doubt.
Which is a higher, in my view a significantly higher
standard than simply by a preponderance of the
evidence. Does it tip the scales, in other words, for by a
preponderance, versus beyond a reasonable doubt,
which is something significantly more than that.
And so although a jury says I can’t find that the
defendant is guilty of these crimes by a preponderance
of the evidence, as I hold up my hands and sort of show
scales moving
further than mere preponderance, the jury says I
can’t find them [82] guilty beyond a reasonable doubt of
these crimes.
And then the government come at sentencing and
says, all right, Congress, the President have said we
want you to apply Sentencing Guidelines, and in
applying those sentencing guidelines there are certain
factors you are to consider, enhancements that you’re to
consider, that impact the guideline. And the Supreme
Court, so far at least, has said you can consider those
facts that may have also been presented to a jury and on
which the jury said I can’t find that the defendant is
guilty beyond a reasonable doubt, but the Supreme
Court has said you can still consider those factors if you
find them by a preponderance for purposes of satisfying
the enhancements under the guidelines.
Now, and so I do—and I’m—frankly that’s the law.
That’s the controlling law. And I have taken an oath to

80a
uphold the law, and so that’s what I do. If the Supreme
Court tells me they have changed that law at some point
in the future, that’s fine, and that’s what I’ll do.
The defense has also made what I guess I would
generally characterize as an equitable argument, a
general fairness argument; that it’s not—even though
the Congress, President and the Supreme Court say you
can still consider these factors in calculating the
guidelines and then considering the guidelines along
with all these other factors in deciding what sentence to
impose, the defense says it’s just fundamentally [83]
unfair for the Court to rely on that information. And I
get the argument. But the problem with it is when you
drill down on the argument, the fundamental unfairness
suggests that you’re essentially relying on those facts
that you find by a preponderance of the evidence when
the jury couldn’t find them beyond a reasonable doubt,
the defense is sort of arguing it’s fundamentally unfair
to do that. But the problem with the argument as I see
it is the Court’s consideration of those facts by a
preponderance of the evidence standard is not the same
as finding somebody guilty of the offense, because if the
Court had found somebody guilty of the offense we would
have a very different sentencing structure here. And so
I don’t see it as problematic as the defense sees it once
you really drill down and understand what the facts are
being considered for.
So that’s—I think you’ve made that argument quite
a bit today, and you’re entitled to know what I think, and
the Court of Appeals when they listen to—or read the
transcript is entitled to know how I view it and what I
think.
So we’ve talked about the offense, the defendant’s
history and characteristics.

81a
When I go to the presentence report, defendant was
born in 1994 in Hampton to his parents. And Paragraph
52 reflects that his parents have no criminal or
substance abuse history and they’re supportive of the
defendant. There’s discussion here of his half siblings,
and I’ve reviewed that. [84] And of course it notes that
his parents were separated when he was six, and prior
to that separation the family lived in Hampton, and he
recalled spending most of his time with his maternal
grandmother, who continues to reside there, and he has
fond memories of spending time with his grandmother
and learning how to spend time there cooking and
baking and other things. And he spent time with his
father playing basketball.
And then after his parents separated he resided with
his mother and they relocated from Hampton to
Charlotte, and that presented challenges for the
defendant, uprooting him and moving him from his
routine with his father and his grandmother.
At age 10 the defendant moved back to Hampton.
He’s lived there ever since. He resumed contact with his
grandmother and then sporadic contact with his father.
He denies any abuse or neglect as a child, and he
describes in Paragraph 98 his feelings about the way in
which he experienced life as a young person, and
primarily lived with his mother, but following a
suspension in the sixth grade he lived with his father,
and also lived with his father during the tenth grade.
And at 18 he moved out of his mother’s home and been
on his own ever since.
Defendant is not married or have children, but he’s
in a relationship with Ms. Cook. And that’s in Paragraph
60. And it describes that committed relationship and his
relationship with her children and their plans.

82a
[85] His grandmother was also interviewed in
Paragraph 61, we see that information, and thereafter.
And after the parents’ separation there’s the notation
that his contact with his father has not been consistent
and may have contributed to some of his challenges.
The defendant’s physical condition is reviewed in
Paragraph 66, 67, 68, 69, and his mental and emotional
health after that, and there’s the discussion of his
hospitalization for mental-health-related issues in
November, 2014, and the discussion in those paragraphs
of that. He was diagnosed with depression and anxiety,
but has not had any mental health treatment since then
and has not been able to follow through due to his lack
of insurance.
When he was there at the Behavioral Health Center
at Riverside in Hampton, he did test positive for opiates
and cannabis, and he reported using spice, which is
synthetic marihuana. And in addition to the substance
abuse disorder there, he was diagnosed with depressive
disorder not otherwise specified and antisocial
personality disorder. And he states that he believes he
could benefit from mental health counseling. And so all
the way down to Paragraph 77 we have the discussion of
these issues.
The defense has highlighted the absence of further
testing that could have been beneficial to the defendant
at an earlier age, and I think that may well be the case,
and perhaps [86] can be addressed, because the
defendant is still a very young man.
The substance abuse paragraphs, 78 through 85, go
through the defendant’s substance abuse history, and
among the things that the Court sees there is he
completed the drug court program in 2009 in the state
system.

83a
Educationally the defendant last completed tenth
grade at Enterprise Academy in Newport News and was
sent there after caught with drug paraphernalia at
Warwick High School. He did well, he said, at Enterprise
Academy, but did not finish. And his family confirmed
that he did better at Enterprise Academy than at
Warwick High School. Paragraph 87 reviews the
transcripts and Paragraph 88 discusses his enrollment
in GED classes without completion at TNCC and now at
Western Tidewater Regional Jail.
Employment record. We have he was working one
day a week as a landscaper prior to his arrest. Has not
been formally employed since 2016. Previously, ‘15, ‘16
worked as a machine operator at Smithfield Packing,
and has worked at Outback Steakhouse and as a roofer
and at the Cinema Cafe in various places.
We then come to the criminal history which begins at
age 13 with a petty larceny and break and enter, a
description of it there. We have, age 14, concealment and
possession of marihuana. Age 15—and a lot of these are
alternate findings [87] of guilt after other things were
tried. We have possession of drug paraphernalia. Age 17,
possession of marihuana. Age 20, enter vehicle to
commit crime, 12 months suspended. Petty larceny, 12
months, suspended. Petty larceny, 12 months custody,
suspended. And he was successfully terminated from
supervision there. Age 22, failure to stop for an accident
with injury, 12 months custody, suspended. Age 22,
possession of Oxycodone, five years custody, suspended.
And those are the convictions before the Court.
And so the Court has considered that and the letters
from defendant’s family.
The Court considers the need for the sentence to
reflect the seriousness of the offense. And defendant
knows much better than I do what introduction of these

84a
drugs, the heroin and the cocaine and the other drugs
involved here, but what the introduction of those drugs
do to families and communities. It creates addictions. It
diverts money being used to buy the drugs from
supporting children and being productive. The time that
people are involved using the drugs and getting the
money to use the drugs is time in which they could be
flourishing citizens and members of families. It creates
addictions. It breaks up families. Children don’t
understand why their parent is addicted and they’re not
there to support them and love them. And it is sort of a
cancer that eats at the heart of a community. It’s a very
sad thing to see [88] day in and day out as I do sitting
here, and I can only imagine how sad it is when you’re
in the middle of a community where you see it all the
time with friends and neighbors or family members,
even.
The Court is required to consider a sentence that
promotes respect for the law and provides a just
punishment, one that affords deterrence to the
defendant and to people who hear of the sentence. And
of course when I see these numerous interactions with
law enforcement and the criminal justice system in the
presentence report, it makes me ask, what will be
necessary to deter this kind of behavior? And that’s just
a normal, common-sense question that I have when I
look at all this.
I do note that they’re not significant periods of
incarceration where the defendant has had an
opportunity to kind of learn the kind of lesson that
sometimes a significant period of incarceration can
teach. And so I do consider that in imposing the sentence
that I impose here.
We don’t know what a year or two would have done
in an earlier scenario to prevent us being here now.

85a
The Court considers the need for education and
treatment and the need to protect the public. I’ve
already talked about the danger here of these drugs and
having weapons around. It’s just, it is a recipe for
disaster that we see every day on the streets of our
community.
[89] The Court considers the sentencing range. And
that brings me to the upward departure request, upward
variance request. And I consider that also in conjunction
with the Factor 6 need to avoid unwarranted sentence
disparities among defendants with similar records found
guilty of similar offenses.
I would be much more inclined, I think, here to
consider a request for an upward variance or departure
had I seen some significant periods of incarceration, had
I seen somebody who was older, who had more serious
criminal activity. But I don’t. And I just don’t think it’s
the case for that departure.
The government, you know, as I said earlier, I
understand why the government is trying to say that but
for some things that weren’t done, evidence might have
been submitted and findings might have been made. But
you know, we take the case as it is. We don’t really ask
what if with respect to convictions.
And so I think that in considering the guideline
range in the first instance, which is the first factor I’m
supposed to consider, I don’t think an upward variance
or an upward departure is appropriate there. And I’ve
reviewed all the other factors. When I look at the nonfrivolous arguments for a downward variance which is
the defendant has asked for, I think I have either noted
the paragraph without in any embarrassing [90] way
trying to go into some specific argument mentioned in
the paragraph, or specifically discussed what is
commented on there.

86a
I do consider the work ethic, the defendant’s age, his
separation and the relationships and his upbringing,
substance abuse issue, the mental health issues
discussed, never being convicted of a felony, and the
deterrence. And I think I’ve addressed—have I
addressed all of the non-frivolous arguments for a
downward variance, Ms. Katchmar? If not, let me know
and I’ll try to do so.
MS. KATCHMAR: You have, Your Honor. Thank
you.
THE COURT: So after carefully considering the
advisory guideline range and all the statutory
sentencing factors, the Court is now prepared to impose
sentence in the case.
Pursuant to the Sentencing Reform Act of 1984, it is
the judgment of the Court that the defendant, Erick
Allen Osby, is hereby committed to the custody of the
United States Bureau of Prisons to be imprisoned for a
term of 87 months. The term consists of 87 months on
Count 5 and a term of 87 months on Count 6, to be served
concurrently.
The defendant is remanded to the custody of the
United States Marshal to serve this sentence.
Upon release from imprisonment, Mr. Osby shall be
placed on supervised release for a term of three years.
This term consists of three years on Count 5 and a term
of three [91] years on Count 6, all to run concurrently.
Within 72 hours of release from custody of the
Bureau of Prisons, Mr. Osby shall report in person to the
probation office in the district where he is released. He
shall refrain from any unlawful use of a controlled
substance and submit to one drug test within 15 days of
starting supervised released, and at least two periodic

87a
drug tests thereafter, as directed by the probation
officer.
While on supervision, Mr. Osby shall not commit
another state federal, state or local crime, and shall not
unlawfully possess a controlled substance and shall not
possess a firearm or a destructive device.
He shall comply with the standard conditions that
have been adopted by this Court for people placed on
supervised release. In addition, he shall obtain a GED if
he doesn’t already have it, or obtain a vocational skill if
he’s not employed full-time.
He shall provide the probation officer access to any
requested financial information.
If he tests positive for controlled substances, he shall
participate in a program approved by the probation
office for substance abuse, and that could include
residential treatment and testing to determine whether
he’s reverted to the use of drugs or alcohol, as directed
by the probation officer. He shall undergo a mental
health evaluation at a program [92] approved by the
probation office for mental health treatment, and shall
follow all recommendations of that evaluation, which
may include treatment, the costs to be paid by him to be
extent he’s capable as directed by the probation officer.
He shall waive rights of confidentiality regarding
substance abuse and/or mental health treatment in
order to allow the release of information to the probation
office so they can track how he’s doing in such mental
health and/or substance abuse treatment.
He shall have no contact with any known gang
member without first obtaining permission of the
probation officer.
The Court finds the defendant is not capable of
paying a fine. He shall pay special assessments of $100

88a
on each count totaling 200. No restitution is imposed. No
fine.
Because the period of ineligibility for defendant here
would expire before the defendant’s release from
custody, the court declines to deny all federal benefits as
requested by the government.
The special assessment is due in full immediately.
Any balance remaining to be paid at $25 a month
beginning 60 days after supervision starts until paid in
full. And the special assessment is subject to default—or
payments, excuse me, is subject to penalties for default
and delinquency, and nothing in my order prohibits the
collection of any judgment or fine by the United States.
Payments of the penalties is due [93] during the period
of imprisonment, and payments are to be made to the
Clerk of this court except those made to the Bureau of
Prisons.
Defendant shall notify the U.S. Attorney for this
district within 30 days of any change of name, residence
or mailing address until of his costs and special
assessments imposed by the judgment is fully paid.
Now Mr. Osby, you have the right to appeal the jury’s
verdict and the right to appeal your sentence if you
believe that it is illegal or incorrectly imposed. If you
wish to pursue an appeal, you must file a notice of appeal
within 14 days from the entry of judgment. If you do not
file the notice of appeal on time, you may lose your right
to appeal.
You have the right to be assisted by an attorney on
appeal. One will be appointed for you by the Court if you
cannot afford to hire an attorney. You may be permitted
to file the appeal without payment of costs if you make
a written request to do so. Also, if you make a request of
the clerk’s office, someone there will prepare and file the
notice of appeal for you.

89a
I will recommend that while you are in the Bureau of
Prisons, you participate—be screened for and
participate in the Brave program and RDAP, and that
you receive a mental health evaluation and any
appropriate recommended treatment as a result of such
evaluation while you are in the Bureau of Prisons.
[94] And I will recommend that you complete your
GED if you have not already done so at the jail.
Ms. Katchmar, anything else I should address?
MS. KATCHMAR: Your Honor, I would ask that if
he’s not eligible or not placed in the Brave program that
he be placed as close to the Hampton Roads area as
possible?
THE COURT: If not placed in the Brave program I’ll
recommend he be housed as close to Hampton Roads,
Virginia as possible.
MS. KATCHMAR: Thank you. Nothing else.
THE COURT: Mr. Osyf, anything else?
MR. OSYF: Your Honor, the Court might notice there
is a forfeiture charge in the second superseding
indictment; however, because the defendant claims no
property interest in the two firearms, the parties have
agreed and worked it out through ATF, and therefore no
consent order of forfeiture will be filed with the Court.
MS. KATCHMAR: That is correct.
THE COURT: All right. Then I don’t have to do
anything else on that front.
MR. OSYF: Right. Nothing further from the
government.
THE COURT: Madam Clerk, anything else from
your standpoint?
COURTROOM DEPUTY CLERK: No, sir.

90a
[95] THE COURT: All right. Thank you all. I wish I
well, Mr. Osby.
(Whereupon, proceedings concluded at 5:40 p.m.)

91a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Newport News Division
[filed Sept. 25, 2019]
UNITED STATES OF
AMERICA
v.
ERICK ALLEN OSBY,
Defendant.

)
)
)
)
)
)
)

Case No: 4:19cr9

DEFENDANT’S OBJECTIONS TO THE
PRESENTENCE REPORT WITH
MEMORANDUM OF LAW
COMES NOW the Defendant, Erick Allen Osby
(“Mr. Osby”), by counsel and pursuant to Federal
Rule of Criminal Procedure 32, Section 6A1.2 of the
United States Sentencing Guidelines, and the Sentencing Procedures Order (ECF No. 22), and hereby
states seven (7) objections to the Presentence Investigation Report (“PSR”), some of which may affect the
advisory guidelines. Mr. Osby files separately his position with respect to the statutory sentencing factors under 18 U.S.C. § 3553(a).
I.

Objection: The Inclusion of Acquitted Conduct in the Presentence Investigation Report
and its Use in Calculating the Applicable
Guideline Range

Mr. Osby objects to the consideration of acquitted
conduct for sentencing purposes, and specifically in
calculating the applicable guideline range. The con-

92a
sideration of this conduct violates Mr. Osby’s Fifth
and Sixth Amendment guarantees of due process, a
right to a jury trial, and the Double Jeopardy Clause.
Specifically, Mr. Osby objects to the following:
A. Paragraphs 7 through 12: The jury found
that the government did not meet its burden
in proving the allegations contained in these
paragraphs. The jury acquitted Mr. Osby of
both possession with the intent to distribute
acetyl fentanyl, heroin, and fentanyl, and the
lesser-included offense of possession of acetyl
fentanyl, heroin, and fentanyl (Count 1 and
lesser-included offense); possession with the
intent to distribute heroin and possession of
heroin (Count 2 and lesser-included offense);
possession with the intent to distribute cocaine and possession of cocaine (Count 3 and
lesser-included offense); and possession of a of
a firearm in furtherance of a drug trafficking
crime, as alleged in Counts 1 through 3 (Count
4). More simply, the jury acquitted Mr. Osby of
all conduct related to September 18, 2018 and
the Extended Stay America hotel room, and
none of this alleged conduct should be included in the PSR and in the calculation of the
guideline range:
a. 52.32 grams of fentanyl
b. 55.567 grams of cocaine
c. 10 milligrams of oxycodone
d. $17,482.93 (converted to 124.88 grams
of heroin)
e. 1 Springfield semi-automatic handgun

93a
B. Paragraphs 15 and 16: Again, the jury found
that the government did not meet its burden
in proving the allegations in these paragraphs
related to the Taurus, Model PT809, 9mm
handgun, serial number TK061946, and 17
rounds of 9mm ammunition. The jury acquitted Mr. Osby of the alleged possession of this
firearm in furtherance of a drug trafficking
crime on September 27, 2018. (Count 7). Any
reference to this firearm should be removed
from the PSR and this firearm should not be
used to calculate the applicable guideline
range because the jury acquitted Mr. Osby of
this conduct.
C. Paragraph 26: Mr. Osby objects to the drug
quantity calculations used to determine the
applicable base offense level because these
drug quantities include acquitted conduct. The
following chart compares the drug quantities
including, and without, the acquitted conduct.
All acquitted conduct should be excluded from
the calculations:
Converted
Drug
Weight Set
forth in
PSR

Amount
of Acquitted
Conduct
Included

ConvertDrug
Quantity ed Drug
without Weight
Acquitted without
Conduct Acquitted
Conduct

1.0 gram 3.57 kg

0.00

3.57 kg

3.57 kg

52.32 gm 130.80 kg

52.32
0.00 kg
grams
(PSR ¶ 12)
124.88
31.46
grams
grams
(PSR ¶ 12,
converted
cash)

0.00 kg

Drug
Name

Drug
Quantity
Alleged
in PSR

Cocaine
base
Fentanyl

Heroin

156.34 gm 156.34 kg

31.46 kg

94a
Marijuana 5.56 gm
Cocaine

0.00 kg

61.267 gm 12.25 kg

Oxycodone 10.0 mg
(actual)

0.06 kg

Total:

303.04 kg =
Level 24

0.00

0.00 kg

0.00 kg

55.567
5.7 grams 1.14 kg
grams
(PSR ¶ 12)
10.0 mg
0.00 kg
(PSR ¶ 12)

0.00 kg
36.17 kg =
Level 161

D. Paragraph 27: Mr. Osby objects to the inclusion of the two-level enhancement pursuant to
U.S.S.G. § 2D1.1(b)(1) for possession of a dangerous weapon. This enhancement is based
solely on acquitted conduct. The jury acquitted
Mr. Osby of possessing any weapon in furtherance of a drug trafficking crime. See ECF No.
58 – Jury Verdict Form (acquittal on Count 4
and Count 7).
E. Paragraphs 100 and 101: Mr. Osby objects
to the guideline range calculations set forth in
these paragraphs because they are based in
large part on acquitted conduct, which should
not be referenced in the PSR or used to calculate the applicable guideline range.
The reference to and use of acquitted conduct in
sentencing, as laid out above, is fundamentally unfair and violates Mr. Osby’s Fifth and Sixth Amendment rights. The use of acquitted conduct in sentencing is an “important, frequently recurring, and troubling contradiction in sentencing law.” United States
v. Bell, 808 F.3d 926, 932 (D.C. Cir. 2015) (Millett, J.,
concurring in the denial of rehearing en banc), cert.
denied, 137 S. Ct. 37 (2016). The Sixth Amendment
See U.S.S.G. § 2D1.1 (12): At least 20KG but less than 40KG of
converted drug weight corresponds to a base offense level of 16.
1

95a
right to jury trial is designed to protect defendants
from prosecutorial and judicial overreach. See Duncan v. Louisiana, 391 U.S. 145, 155-56 (1968). It is “a
fundamental reservation of power in our constitutional structure.” Blakely v. Washington, 542 U.S.
296, 305-06 (2004). The use of jury-rejected allegations at sentencing violates this right. When the jury
acquits, it makes a “legal certification” that “an accused person is not guilty of the charged offense.”
Acquittal, Black’s Law Dictionary (10th ed. 2014). As
the Supreme Court has emphasized, “the law attaches particular significance,” United States v. Scott,
437 U.S. 82, 91 (1978), and “special weight” to a jury’s decision to acquit a defendant, United States v.
DiFrancesco, 449 U.S. 117, 129 (1980). An acquittal
is meant to be final and “unassailable.” Yeager v.
United States, 557 U.S. 110, 122-23 (2009). As Justices and judges have continued to emphasize, the
“disregard[]” for the Sixth Amendment through the
use of acquitted conduct at sentencing “has gone on
long enough.” Jones v. United States, 135 S. Ct. 8, 9
(2014) (Scalia, J., joined by Thomas & Ginsburg, JJ.,
dissenting from denial of certiorari).
Mr. Osby acknowledges that in United States v.
Watts, 519 U.S. 148 (1997) (per curiam), the Supreme Court considered whether the practice of considering acquitted conducted for sentencing purposes
offended the Double Jeopardy Clause and held that it
did not. See United States v. Booker, 543 U.S. 220,
240 n.4 (2005) (observing that Watts “presented a
very narrow question” regarding the Double Jeopardy Clause.) Importantly, though, in the two decades since, numerous Justices and judges have questioned whether use of acquitted conduct at sentencing comports with the Sixth Amendment’s jury trial

96a
guarantee and due process principles and have urged
the Supreme Court to “take up this important, frequently recurring, and troubling contradiction in
sentencing law.” E.g., United States v. Bell, 808 F.3d
926, 932 (D.C. Cir. 2015) (Millett, J., concurring in
denial of rehearing en banc). Justice Kennedy
warned that increasing a sentence based on facts the
jury rejected raises concerns of “undercutting the
verdict of acquittal.” 519 U.S. at 170 (Kennedy, J.,
dissenting). In Bell, then-Judge Kavanaugh posited
that increasing a defendant’s sentence based on acquitted conduct “seems a dubious infringement of the
rights to due process and to a jury trial.” 808 F.3d at
928 (Kavanaugh, J., concurring in the denial of rehearing en banc).
In Jones v. United States, a jury convicted petitioners of distributing small amounts of cocaine but
acquitted them of conspiring to distribute drugs. 135
S. Ct. 8 (2014) (Scalia, J., dissenting from denial of
certiorari). Nevertheless, the sentencing judge found
that they had engaged in the alleged conspiracy and
based their sentences on that finding. Dissenting
from the denial of certiorari, Justice Scalia, joined by
Justices Thomas and Ginsburg, highlighted the
pressing need for the Court to resolve whether the
Due Process Clause and the Sixth Amendment’s jury-trial right permit judges to sentence defendants
based on acquitted conduct. Id. at 8-9. Justice Scalia’s dissent noted that “[t]he Sixth Amendment, together with the Fifth Amendment’s Due Process
Clause,” require that each element of a crime be either admitted to the jury or proved beyond a reasonable doubt. Id. at 8. The dissent lamented that the
courts of appeals had “uniformly taken [the Court’s]
continuing silence” on the question “to suggest that

97a
the Constitution does permit” sentences supported
by judicial findings, including findings that defendants “engaged in [an offense] of which the jury acquitted them.” Id. at 9. The dissent stated that the
use of acquitted conduct at sentencing represented a
“disregard[]” for the Sixth Amendment that had
“gone on long enough.” Id.
This Court would not be alone in concluding, and
should conclude, that the use of acquitted conduct at
sentencing is unconstitutional, and “violates both our
common law heritage and common sense.” United
States v. White, 551 F.3d 381, 387 (en banc) (Merritt,
J., dissenting) (writing on behalf of six judges); see
also, e.g., United States v. Mercado, 474 F.3d 654,
658-65 (9th Cir. 2007) (Fletcher, J., dissenting), cert.
denied, 552 U.S. 1297 (2008); United States v. Faust,
456 F.3d 1342, 1349-53 (11th Cir.) (Barkett, J., specially concurring), cert. denied, 549 U.S. 1046 (2006).
Many Judges have observed that “the use of acquitted conduct to enhance a defendant’s sentence should
be deemed unconstitutional under both the Sixth
Amendment and the Due Process Clause of the Fifth
Amendment,” United States v. Lasley, 832 F.3d 910,
920-21 (8th Cir. 2016) (Bright, J., dissenting), and
has “urge[d] the Supreme Court to re-examine its
continued use,” United States v. Canania, 532 F.3d
764, 776-78 (8th Cir. 2008) (Bright, J., concurring);
see also United States v. Coleman, 370 F. Supp. 2d
661, 671 (S.D. Ohio 2005) (Marbley, J.); United
States v. Pimental, 367 F. Supp. 2d 143, 152 (D.
Mass. 2005) (Gertner, J.).
Because the use of acquitted conduct at sentencing violates Mr. Osby’s Fifth and Sixth Amendment
rights, this Court should refuse to consider the acquitted conduct set forth in paragraphs 7-12, 15, 16,

98a
26, 27, 100, and 101 and excise the mention of this
conduct from the PSR. Further, this Court should
find that the applicable base offense level is 16 based
on a drug quantity of less than 40 kilograms of converted drug weight. Finally, this Court should refuse
to apply the enhancement for gun possession under §
2D1.1(b)(1) (PSR ¶ 27) because the jury acquitted
Mr. Osby of possessing a firearm in furtherance of
drug trafficking, as alleged in Counts 4 and 7.
The use of acquitted conduct at sentencing in a
case like this threatens the legitimacy of the system
of trial by jury and “undermine[s] public confidence
in the fairness of our system of justice.” See Batson v.
Kentucky, 476 U.S. 79, 87 (1986); see also RosalesMireles v. United States, 138 S. Ct. 1897, 1903 (2018)
(expressing concern where sentencing practices “seriously affect the fairness, integrity, or public reputation of judicial proceedings”).
II.

Objection: The Reference to and Use of Any
and All Relevant Conduct for Sentencing Purposes

Mr. Osby further objects to the use of all relevant
conduct for sentencing purposes. In doing so, he incorporates the arguments set forth above specifically
relating to acquitted conduct but he also objects to
the inclusion and use of the following relevant conduct:
A. Paragraph 6 and Date of Earliest Relevant Conduct: The allegations contained in
paragraph 6 relating to a controlled buy that
allegedly occurred on September 4, 2018, were
not presented to the jury. These are unsubstantiated allegations that should not form the
basis of a judicial finding. Moreover, Mr. Osby

99a
notes that there was no laboratory analysis of
the substances and the packaging. Specifically, Mr. Osby objects to the inclusion of this
paragraph in the PSR and the use of the drug
weights contained within in the determination
of the applicable guideline range.
B. Paragraph 13: Paragraph 13 details a controlled buy that allegedly occurred on September 27, 2018. These allegations were not presented to the jury, and Mr. Osby objects to a
judicial finding that this buy occurred and the
drug weights/currency involved. Again, Mr.
Osby objects to the inclusion of this paragraph
in the PSR and the use of the drug
weights/currency in the determination of the
applicable guideline range.
C. Paragraph 19: This paragraph sets forth the
total alleged drug weights, including acquitted
and other relevant conduct. Mr. Osby objects
to the inclusion of the conduct detailed in subsection I in this pleading, also to the other relevant conduct listed above.
D. Paragraphs 26, 100 and 101: These paragraphs set forth the guideline calculations
which are based, in large part, on relevant
conduct. Mr. Osby objects. Without any of the
relevant conduct identified in paragraphs 6,
13, and 12-17 (acquitted conduct), the calculations would be as follows:

100a
Converted
Drug
Weight Set
forth in
PSR

Drug
Name

Drug
Quantity
Alleged
in PSR

Cocaine
base

1.0 gram 3.57 kg

1.0 gram 0.00 kg
(PSR ¶ 6)

0.00 kg

Fentanyl

52.32 gm 130.80 kg

0.00 kg

Heroin

156.34 gm 156.34 kg

52.32
0.00 kg
grams
(PSR ¶ 12)
124.88
29.96
grams
grams
(PSR ¶ 12,
converted
cash); .5
gram
(PSR ¶ 6);
1 gram
(PSR ¶ 13)

Marijuana 5.56 gm
Cocaine

0.00 kg

61.267 gm 12.25 kg

Oxycodone 10.0 mg
(actual)

0.06 kg

Total:

303.04 kg =
Level 24

Amount
of Relevant
Conduct
Included

0.00 kg

Drug
Quantity
without
Acquitted
Conduct

0.00 kg

Converted Drug
Weight
without
Acquitted
Conduct

29.96 kg

0.00 kg

55.567
5.7 grams 1.14 kg
grams
(PSR ¶ 12)
10.0 mg 0.00 kg
(PSR ¶ 12)

0.00 kg
31.10 kg =
Level 162

Again, Mr. Osby acknowledges that a sentencing
court is not “bound by the evidence presented at trial
when determining drug quantity or other relevant
conduct,” United States v. Young, 609 F.3d 348, 357
(4th Cir. 2010), and may “consider acquitted conduct
in establishing drug amounts for purpose of sentencing, so long as the amounts are established by a preponderance of the evidence.” United States v. Perry,
See U.S.S.G. § 2D1.1 (12): At least 20KG but less than 40KG of
converted drug weight corresponds to a base offense level of 16.
2

101a
560 F.3d 246, 258 (4th Cir.2009); U.S. Sentencing
Guidelines Manual (“USSG”) § 1B1.3(a)(2) (2018).
That said, he objects on the grounds that the Court’s
use of relevant conduct in sentencing violates his
Fifth and Sixth Amendment rights. He has not been
charged and convicted of this conduct beyond a reasonable doubt. Using unproven conduct at sentencing
eviscerates the “fundamental reservation of power”
in the jury and prevents it from “exercis[ing] the control that the Framers intended.” Blakely, 542 U.S. at
306. And doing so by ignoring the “[e]qually well
founded ...companion right to ... proof beyond a reasonable doubt” is no answer. Apprendi v. New Jersey,
530 U.S. 466, 478 (2000). Like other “inroads upon
the sacred bulwark of the nation,” the logical possibility that different standards of proof applied by jury and judge might produce different results is “fundamentally opposite to the spirit of our constitution.’”
Booker, 543 U.S. at 244, quoting 4 Blackstone 34344.
Further, the government has not proven the relevant conduct by a preponderance of the evidence. See
United States v. Wilkinson, 590 F.3d 259, 269 (4th
Cir. 2010). Specifically, with regard to paragraph 6
and the date of earliest relevant conduct, the allegations contained in the PSR are based, apparently, on
information provided by a confidential source regarding the purchase of 1 gram of cocaine and a half a
gram of heroin. This confidential source has not been
disclosed as to identification during the discovery
process, investigated by defense, subject to crossexamination and the veracity of his/her statements
cannot be tested. Further, there is no laboratory report confirming that the substances are in fact cocaine and heroin, and that the quantities alleged in

102a
the PSR are correct. This information is unreliable,
at best, and the Court should refuse to include it in
the PSR and as part of the drug-quantity calculation.
Finally, the use of relevant conduct in determining the appropriate sentence creates disparity and
inconsistency. Uncharged conduct, as here, is often
based on untrustworthy information, such as the allegations of a cooperating witness. Further, the relevant conduct guideline is applied inconsistently because of “ambiguity in the language of the rule, discomfort with the role of law enforcement in establishing relevant conduct, and discomfort with the severity of sentences that often result.” See U.S. Sentencing Comm’n, Fifteen Years of Guidelines Sentencing:
An Assessment of How Well the Federal Criminal
Justice System is Achieving the Goals of Sentencing
Reform, at 87 (2004); see also Pamela B. Lawrence &
Paul J. Hofer, An Empirical Study of the Application
of the Relevant Conduct Guideline § 1B1.3, Federal
Judicial Center, Research Division, 10 Fed. Sent.
Rep. 16 (July/August 1997). Moreover, the use of relevant conduct in sentencing promotes disrespect for
the law, contrary to 18 U.S.C. § 3553(a)(2)(A).
Where, as here, such a sentence would be based in
part on acquitted conduct, the jury’s verdict is, as a
matter of perception and for all practical purposes,
overturned. See United States v. Canania, 532 F.3d
764, 777 (8th Cir. 2008) (Bright, J., concurring) (referring to “the unfairness perpetuated by the use of
‘acquitted conduct’” as “uniquely malevolent” and
“wonder[ing] what the man on the street might say
about this practice of allowing a prosecutor and
judge to say that a jury verdict of ‘not guilty’ for
practical purposes may not mean a thing.”). Lastly,
the relevant conduct guideline and its commentary

103a
“do not exemplify the Commission’s exercise of its
characteristic institutional role,” and fail to achieve §
3553(a)’s purposes. Kimbrough v. United States, 552
U.S. 85, 109 (2007); Rita v. United States, 551 U.S.
338 (2007). Whether by sustaining Mr. Osby’s objection to the use of all relevant conduct, or by varying
significantly downward from the advisory guideline
range, this Court should reject the use of relevant
conduct for sentencing purposes in this case.
III. Objection: Premises Enhancement
Mr. Osby objects to the PSR’s application of a
two-level enhancement for maintaining a premises
for the purposes of manufacturing or distributing a
controlled substance. PSR ¶ 28 (citing U.S.S.G. §
2D1.1(b)(12)).
U.S.S.G. § 2D1.1(b)(1) applies “to a defendant
who knowingly maintains a premises (i.e., a building,
room, or enclosure) for the purpose of manufacturing
or distributing a controlled substance, including
storage of a controlled substance for the purpose of
distribution.” U.S.S.G. § 2D1.1 cmt. n. 17. The
Guidelines call for courts to compare the frequency of
illegal and legal activities at the premises in making
this determination. Id. The significance and scope of
the illegal activities conducted on the premises are
thus relevant considerations. See United States v.
Sanchez, 710 F.3d 724, 730 (7th Cir. 2013), vacated
on other grounds, _ U.S. _, 134 S. Ct. 146 (2013);
United States v. Miller, 698 F.3d 699, 707 (8th Cir.
2012).
The Court must find by a preponderance of the
evidence any fact relied upon in applying the enhancement. United States v. Vinson, 886 F.2d 740,
741-42 (4th Cir. 1989); see also U.S.S.G. § 6A1.3 cmt.

104a
To resolve disputed facts relevant to the enhancement, the Court “may consider relevant information”
only so long as it has “sufficient indicia of reliability
to support its probable accuracy.” U.S.S.G. §
6A1.3(a).
According to the Guidelines commentary,
“[a]mong the factors the court should consider in determining whether the defendant maintained the
premises are (A) whether the defendant held a possessory interest in (e.g., owned or rented) the premises and (B) the extent to which the defendant controlled access to, or activities at, the premises.”
U.S.S.G. § 2D1.1 cmt. n. 17. In United States v.
Acosta, the court explained that “an individual
‘maintains' a drug house if he owns or rents premises, or exercises control over them, and for a sustained period of time, uses those premises to manufacture, store, or sell drugs, or directs others to those
premises to obtain drugs.” 534 F.3d 574, 591 (7th
Cir. 2008) (emphasis added).
In the present case, it is unclear which premises
formed the basis of the enhancement, but neither of
the two options support the enhancement. The first
option is the hotel room. Most critically, the jury acquitted Mr. Osby of these charges because the evidence was not sufficient. See supra (argument on acquitted conduct). In addition to the acquittal, the evidence is not sufficient to support the enhancement.
Mr. Osby visited the hotel and the room in question,
but another person originally rented the room; others
had access to the room; no video cameras showed
who had access to the room or when; the door keys
produce a log, which was not examined, investigated
or preserved; and it was unknown when the last time

105a
Mr. Osby had been in that room prior the police arriving on scene.
The second option is the house from September
27, 2018, where it is alleged that a confidential
source purchased heroin from Mr. Osby while inside
the house. Once again, this conduct was not alleged
in the indictments, the confidential source was not
subject to cross- examination or shown to be reliable,
and Mr. Osby was not convicted of these allegations,
so it should not serve as an enhancement. Additionally, there is no information alleging or supporting
that Mr. Osby had any control of the house. Mr. Osby
did not open the door when the confidential source
approached the house, and it was alleged that there
were other people in the house. Furthermore, it appears that the substances at issue were not kept in
the house, and Mr. Osby did not retrieve any drugs
from a location within the house; rather, they were
kept in a shoulder bag worn by Mr. Osby. PSR ¶ 13.
Mr. Osby did not maintain the premises of that location.
This evidence—or lack thereof—does not compare
with the evidence of frequent or substantial drug distribution or storage frequently cited by courts applying this enhancement. United States v. Keitt, 647 F.
App’x 157, 159 (4th Cir. 2016) (approving enhancement where controlled purchases from the residence
“resulted in the seizure of fifteen ounces of cocaine
base and $5600 in cash” and was known as a “crack
house”); United States v. Sanchez, 810 F.3d 494, 497
(7th Cir. 2016) (approving enhancement where defendant “received large drug deliveries every few
weeks, was paid a large sum for storage, and controlled access to the drugs”); United States v. Jones,
778 F.3d 375, 383 (1st Cir. 2015) (approving en-

106a
hancement where “[s]urveillance evidence showed
that the defendant [and a co-defendant] sold drugs
from the apartment for nearly three months,” and a
“search of the apartment disclosed that sizeable
quantities of cocaine and numerous accoutrements of
the drug-trafficking trade” including kilo wrappers
“were being kept there”); Johnson, 737 F.3d at 44748 (enhancement applied where defendant had
stored 1,200 pounds of marijuana in his home during
an eight-month period, and officers observed three
instances when co-conspirators retrieved large quantities of drugs from the premises for distribution);
Sanchez, 710 F.3d at 731-32 (enhancement applied
where defendant “regularly sold and stored drugs in
his home” over a two-year period and “received massive amounts of cocaine in his home and garage”).
Without additional information or investigation
about the hotel or house, this enhancement cannot
apply, nor should it apply to the hotel after Mr. Osby
was acquitted of all charges related to the hotel
room.
IV. Objection: Denial of Federal Benefits
Mr. Osby objects to the PSR’s denial of federal
benefits for 5 years as a penalty at sentencing. PSR ¶
101. Pursuant to 21 U.S.C. § 862, a district court
may, in certain circumstances, deny federal benefits
to a defendant. The length of time that the benefits
may be denied depends on the type of offense and the
prior convictions.
The PSR states that Mr. Osby would be ineligible
for a period of 5 years, which appears to be based on
a first offense as a “drug trafficker” under 21 U.S.C.
§ 862(a)(1). However, the statute clearly states that
the penalty is at the “discretion of the court” and can

107a
be imposed for “up to 5 years.” The problem with this
penalty is that it undermines Mr. Osby’s ability and
opportunities to rehabilitate upon reentering society.
It would prevent Mr. Osby from receiving any “grant,
contract, loan, professional license, or commercial
license provided by an agency of the United States.”
21 U.S.C. § 862(d)(1)(A). As an example, this denial
would prevent Mr. Osby from receiving a Pell grant,
which is designed to help students who “display exception financial need” in furthering their education.3 All of the benefits listed directly relate to education and employment, two critical aspects of rehabilitation. Denying these options to Mr. Osby does
not further the goals of anyone involved. The Court
should exercise its discretion by not imposing a denial of federal benefits.
V.

Objection: DNA

Mr. Osby objects to the consideration of any DNA
evidence. PSR ¶¶ 11, 17. The government failed to
provide timely notice to the defendant, and the court
properly excluded such evidence. By not providing
timely notice, it prevented the defense from properly
preparing to defend and respond to the evidence in
litigation, subject to cross examination. Allowing any
such evidence against Mr. Osby at sentencing allows
the government to now benefit and avoid the appropriate sanction of the Court.
VI. Objection: Upward Departure
Mr. Osby objects to the PSR stating that an upward departure may be warranted. PSR ¶¶ 103, 104.
Pursuant to U.S.S.G. § 4A1.3, there are five types of
information that can form the basis for an upward
3

https://studentaid.ed.gov/sa/types/grants-scholarships/pell

108a
departure: (1) prior sentences not counted, “such as
from foreign and tribal jurisdictions”; (2) prior sentences of substantially more than 1 year for crimes
on different occasions; (3) prior similar conduct established by a civil adjudication; (4) a pending case
at the time of the offense; and (5) “prior similar adult
conduct not resulting in a criminal conviction.”
U.S.S.G. § 4A1.3(a)(2)(emphasis added).
The probation office states that the departure
may be warranted because (1) Mr. Osby’s juvenile
convictions did not receive points because of “time
constraints”; (2) a pending drug case; and (3) charges
as an adult that were dismissed or nolle prossed. To
address the juvenile convictions, the United States
Sentencing Commission purposely created a different
standard for how to calculate a juvenile conviction
compared with an adult conviction. U.S.S.G. §
4A1.2(d)(2) and appl. note 7. The policy consideration
underlying this rule aligns with the various ways juveniles are treated different in the criminal justice
system. Even part 5 of the upward departure factors
singles out “adult conduct.” U.S.S.G. § 4A1.3(a)(2)(E).
Incorporating Mr. Osby’s juvenile record when it is
beyond the limits set by the Commission would contradict both the language and intention of limiting
juvenile histories.
As for the pending case in state court, the matter
has not yet gone to trial and the evidence should not
be pre-judged by this Court without the benefit of litigation and cross examination, as protected under
the Constitution. U.S. Const. amends. IV, V, VI. Mr.
Osby retains his presumption of innocence. Furthermore, plenty of individuals before the Court have
pending state matters and the fact of a pending
charge does not distinguish Mr. Osby from many

109a
other defendants who face sentencing on a drug conviction.
Lastly, the probation office considers the adult
charges that were dismissed or nolle prossed. There
are three issues with this. One, in doing so, the probation office ignores the language of the guideline
that the court may consider “similar adult conduct”
based on “reliable information”; a departure cannot
be based on anything and everything that has been
dismissed. Most of the charges that have been dismissed are completely unrelated to facts of the current case, do not involve similar conduct, and the reliability of much of it is unknown. Two, the information provided by the probation office, as well as
available to the probation office, did not include all of
the information taken into consideration that led to
the decisions to dismiss the charges—such as inconsistent statements, unreliability of information provided, alibies. The local prosecutors would have access to such information and rely on such information in deciding whether to pursue cases. An upward departure would contradict the independent
determinations by the state prosecutors. Three, punishing Mr. Osby for allegations for which he has not
been convicted violates his constitutional rights to
the presumption of innocence and punishes him
without the benefit of a trial, without the government meeting their burden of proof beyond a reasonable doubt, and without exercising his rights to cross
examine the evidence against him or present evidence against those allegations in his own defense.
U.S. Const. amends. IV, V, VI.

110a
VII. Objection: Gang Affiliation
Mr. Osby objects to any gang affiliation, referenced on page 2 and paragraph 59. Mr. Osby adamantly denies any gang affiliation. PSR ¶ 59. The
PSR notes the gang affiliation is based on Mr. Osby
“frequenting known gang areas and his history of being associated and arrested with known gang members.” Id. But he is not a known member of the gang.
Id. There is no information of Mr. Osby getting
“jumped” into a gang or joining a gang. He also has
no gang-related tattoos.
Basing a gang affiliation on with who Mr. Osby is
around or where a person frequents essentially criminalizes poverty. The 76th Street gang is at the border of Hampton and Newport News. Mr. Osby spent
his formative years in Hampton and Newport News.
He attended the schools in the area he grew up,
made friends with the kids in his classes, and still
lives in and has family in those areas. He just grew
up in a poor area, so being around gangs is nearly
unavoidable. This does not create a gang “affiliation,”
and such a designation is detrimental to Mr. Osby.
Such an allegation creates designation issues at BOP
and can restrict Mr. Osby from certain programs and
educational opportunities. Mr. Osby requests that
this “affiliation” be struck from the PSR.
Conclusion
Mr. Osby objects to the PSR for the reasons enumerated above. Mr. Osby exercised his constitutional
right to a jury trial, and after extensive litigation,
was found guilty of two of the charges. Any sentence
Mr. Osby receives should be based on the convicted
conduct only. The fundamental rights preserved under the Constitution should not be swept aside by

111a
failing to present charges to a jury or completely disregarding a jury verdict.
Respectfully submitted,
ERICK ALLEN OSBY
By:
/s/
Suzanne V. Suher Katchmar
Virginia State Bar No. 37387
Lindsay J. McCaslin
Virginia State Bar No. 78800
Assistant Federal Public Defenders
Office of the Federal Public Defender
Attorneys for Erick Allen Osby
150 Boush Street, Suite 403
Norfolk, Virginia 23510
Telephone: 757-457-0800
Facsimile: 757-457-0880
suzanne_katchmar@fd.org
lindsay_mccaslin@fd.org
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 25th day of
September, 2019, I will electronically file the foregoing with the Clerk of Court using the CM/EMF system, which will send a notification of such filing
(NEF) to the following:
Peter G. Osyf
Assistant United States Attorney
United States Attorney’s Office
721 Lakefront Commons, Suite 300
Fountain Plaza Three
Newport News, Virginia 23606
peter.osyf@usdoj.gov

112a
I FURTHER CERTIFY that a true and correct
copy of the foregoing will be sent by electronic mail
to:
Sami Geurts
United States Probation Officer
827 Diligence Drive, Suite 210
Newport News, Virginia 23606
By: /s/
Lindsay J. McCaslin
Virginia State Bar No. 78800
Assistant Federal Public Defenders
Office of the Federal Public Defender
150 Boush Street, Suite 403
Norfolk, Virginia 23510
Telephone: 757-457-0800
Facsimile: 757-457-0880
lindsay_mccaslin@fd.org

113a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Newport News Division
[filed May 31, 2019]
UNITED STATES OF
AMERICA
v.
ERICK ALLEN OSBY,

)
)
)
) Criminal No: 4:19cr9
)
)

SPECIAL JURY VERDICT FORM
We, the jury, find the Defendant, ERICK ALLEN
OSBY:
COUNT 1: With respect to Count 1, Possession with
Intent to Distribute a mixture or
substance containing Acetyl Fentanyl,
heroin, and Fentanyl.
Guilty

Not Guilty

X

If your answer for Count 1 is “Guilty,”
please answer question A and then
proceed to count 2. If your answer for
Count 1 is “Not Guilty,” please proceed to
question B and answer such question.
A. With Respect to Count 1, mark the
total amount of acetyl fentanyl, heroin,
fentanyl mixture you find, beyond a
reasonable doubt, was possessed.
40 grams or more
less than 40 grams

114a
B. If “Not Guilty,” with respect to the
lesser included offense of Possession.
Guilty

Not Guilty

X

COUNT 2: With Respect to Count 2, Possession with
Intent to Distribute Heroin.
Guilty

Not Guilty

X

If “Not Guilty,” with respect to the lesser
included offense of Possession.
Guilty

Not Guilty

X

COUNT 3: With Respect to Count 3, Possession with
Intent to Distribute Cocaine.
Guilty

Not Guilty

X

If “Not Guilty,” with respect to the lesser
included offense of Possession.
Guilty

Not Guilty

X

COUNT 4: With Respect to Count 4, if you have
found “Guilty” with respect to Count 1, 2, or 3, not
the lesser included offense of Possession, then with
respect to Count 4, Possession of a Firearm in
Furtherance of a Drug Trafficking Crime.
Guilty

Not Guilty

X

COUNT 5: With Respect to Count 5, Possession with
Intent to Distributed Heroin
Guilty

X

Not Guilty

If “Not Guilty,” with respect to the lesser
included offense of Possession.
Guilty

Not Guilty

COUNT 6: With Respect to Count 6, Possession with
Intent to Distribute Cocaine

115a
Guilty

X

Not Guilty

If “Not Guilty,” with respect to the lesser
included offense of Possession.
Guilty

Not Guilty

COUNT 7: With Respect to Count 7, if you have
found “Guilty” with respect to Count 5, or 6, not the
lesser included offense of Possession, then with
respect to Count 7, Possession of a Firearm in
Furtherance of a Drug Trafficking Crime.
Guilty
/s/ [Redacted]
Jury Foreperson

Not Guilty
5/31/19
Date

X

